Inspections nd Evaluations
           I




               -'3oD Efforts to
                          D E P A R T M E N T OF DEFENSE
                         OFFICE O F INSPECTOR GENERAL




                                   VISION STATEMENT



                                            Professio~
                                              gthening I
                                        'rzt] fJzciency r
                                        <fJe"Lileness of

                                            s and(




If you suspect Fraud,Waste,Abuse, or Mismanagement in the Department of Defense, please contact us.
         Phone: 800.424.9098 E-mail: hotline@dodig.mil Web site: www.dodig.mil/hotline
        Evaluation of the DoD Efforts to Combat Trafficking in Persons
                                                                                 November 2006
Who Should Read This Report and Why?
All commanders and leaders of Department of Defense (DoD) organizations responsible for
implementing programs that combat trafficking in persons (TIP) should read this report. The
report discusses DoD actions taken and provides suggestions on how to improve DoD
programs that can combat TIP.
What We Did
We focused specifically on the Office of the Secretary of Defense (OSD), the Military
Services, selected Combatant Commands, and a power projection platform/mobilization
station.
The objectives of the evaluation were to:
   − Determine if DoD directives, implementing instructions, organization, metrics, and
     resources are adequate for the DoD Components to develop implementing programs with
     actionable objectives.
   − Determine if TIP training effectively promotes awareness of applicable laws and
     restrictions regarding TIP and if the training fosters behavioral changes among DoD
     civilian employees/contractor personnel/Service Members.
   −   Determine if laws and international agreements are sufficient to give commanders the
       requisite authority “outside the gate.”
Our methodologies included reviews of policies and guidance, sensing sessions, Web-based
surveys, interviews with program officials, and installation visits.
What Was Identified?
DoD continues to develop a Department-wide program for combating TIP. The program has
yet to mature. More than 79 percent of survey respondents received TIP awareness training
and more than 86 percent of those trained understood the training. While initial training was
conducted at 85 percent of the locations visited, only 35 percent of the locations maintained an
ongoing TIP awareness program. A DoD directive/implementing instruction is needed to
institutionalize and standardize the Department’s TIP policies and procedures, the
responsibilities of Combatant Commands and Military Services, and the role of military law
enforcement organizations. Commanders did not see their “authority outside the gate” as a
significant barrier to the implementation of an effective TIP program.
DoD has taken, or is taking, the following actions to combat TIP:
   − Completed a general awareness TIP training module. (Leadership and law enforcement
     modules remain under development.)
   −   Established an OSD TIP coordinating council to integrate functional responsibilities.
   −   Added a charge of patronizing a prostitute to the Manual for Courts Martial.
   −   Participated in U.S. interagency senior level TIP coordination.
   − Collaborated on an initiative to develop an interim Defense Federal Acquisition
     Regulation Supplement clause that will require anti-TIP provisions on all DoD contracts.

How to Improve the DoD Program to Combat TIP
We made 14 major recommendations in the areas of coordination, training, policy, and metrics.
                           TABLE OF CONTENTS
Executive Summary                                                               i
Background and Overview                                                        1
Chapter 1—Office of the Secretary of Defense (OSD) and Joint Staff (JS)
      Objective                                                                 7
      OSD                                                                       7
      Joint Staff (JS)                                                          8
      Actions Taken/Proposed                                                    9
      Conclusions                                                              10
      Recommendations                                                          11
      Management Comments and OIG Response                                     11
Chapter 2—Military Services
      Objectives                                                               13
      Army                                                                     13
      Navy                                                                     14
      Marines                                                                  15
      Air Force                                                                16
      Conclusions                                                              17
      Recommendations                                                          17
      Management Comments and OIG Response                                     18
Chapter 3—U.S. Pacific Command (PACOM)
      Objectives                                                               19
      Actions Taken/Proposed                                                   19
      Conclusions                                                              20
      Recommendations                                                          20
      Management Comments and OIG Response                                     21
      Military Installations, Hawaii Region                                    21
      U.S. Forces—Japan (USFJ)                                                 23
      U.S. Forces—Korea (USFK)                                                 26
Chapter 4—U.S. European Command (EUCOM)
      Objectives                                                               31
      Actions Taken/Proposed                                                   31
      Conclusions                                                              34
      Recommendations                                                          34
      Management Comments and OIG Response                                     35
Chapter 5--U.S. Central, Northern, Southern, and Special Operations Commands
      Objective                                                                37
      CENTCOM                                                                  37
      NORTHCOM                                                                 38
      SOUTHCOM                                                                 39
      SOCOM                                                                    40
      Conclusions                                                              40
      Recommendations                                                          40
      Management Comments and OIG Response                                     41
TABLE OF CONTENTS (Continued)

Chapter 6—Ft. Bliss, Texas/Joint Task Force North
      Objective                                                                     43
      Actions Taken/Proposed                                                        43
      Conclusions                                                                   45
      Recommendations                                                               45
      Management Comments and OIG Response                                          46
Chapter 7—Labor Trafficking
      Objective                                                                     47
      Actions Taken                                                                 47
      Conclusions                                                                   49
      Recommendations                                                               50
      Management Comments and OIG Response                                          50


      List of Appendixes
      A             Scope and Methodology                                          51
      B             Congressional Letters                                          57
      C             National Security Presidential Directive-22                    63
      D             DoD & NATO Policy Memorandums                                  71
      E             DoD Combating Trafficking in Persons Initiatives               79
      F             Multi-National Force—Iraq (MNF-I) and Coalition Forces Land
                    Component Command (CFLCC) Trafficking in Persons Initiatives    81
      G             Web-Based Survey Questionnaire                                  87
      H             Web-Based Survey Results                                        93
      I             Onsite Sensing Session Results                                 103
      J             Department of Defense & Joint Staff Comments                   111
      K             Military Services’ Comments                                    123
      L             Combatant Commands’ Comments                                   131
      M             NGO & US Government Organizations Combating
                    Trafficking in Persons                                         157
      N             Glossary                                                       159
      O             Report Distribution                                            163
Executive Summary

Evaluation of Department of Defense (DoD) Efforts to Combat Trafficking in
Persons (TIP)

Trafficking in Persons (TIP) Defined. The recruitment, transportation, transfer, harboring or
receipt of persons by means of threat or use of force or other forms of coercion, abduction,
fraud, deception, abuse of power, or of a position of vulnerability, or giving or receiving
payments or benefits to achieve the consent of a person having control over another person, for
the purpose of exploitation. Exploitation shall include, as a minimum, the exploitation of the
prostitution of others or other forms of sexual exploitation, forced labor or services, slavery or
practices similar to slavery, servitude, or the removal of organs.*


Overall Assessment

DoD has made significant progress in implementing a comprehensive program for combating
TIP. DoD has fielded training for all deploying Service Members, civilians, and DoD
contractors. Significant work remains to institutionalize an ongoing and mature anti-TIP
program. Commanders do not see their “authority outside the gate” as a significant barrier to the
implementation of an effective TIP program.

Background and Overview

National Security Presidential Directive-22 (NSPD-22). Issued in December 2002, this
Directive instructs that Federal agencies strengthen their collective efforts, capabilities, and
coordination to support the policy to combat trafficking in persons (Appendix C).

Congressional Request. On November 18, 2005, the Department of Defense Inspector General
(DoD IG) announced this evaluation to determine if DoD was implementing actions to combat
trafficking in persons. This evaluation is one of several DoD IG initiatives in response to a 2003
congressional letter signed by two members of Congress (Appendix B). The letter expressed
concerns about alleged U.S. military personnel and contractor involvement in sex trafficking.

Secretary of Defense/Deputy Secretary of Defense. Both the Secretary of Defense (SecDef)
and Deputy Secretary of Defense (DepSecDef) published policy letters on this subject (Appendix
D). These documents established the Department’s “zero tolerance” TIP policy and directed the
involvement of DoD Inspectors General in this issue.

Evaluation Scope. To address congressional interest and to comply with SecDef and
DepSecDef guidance, this report examines DoD policies and procedures to combat trafficking in
persons (TIP). The DoD IG evaluation team interviewed officials at the Offices of the Secretary
of Defense (OSD), Joint Staff, Army, Air Force, Navy, and Marine Corps, and representatives of
selected Combatant Commands. (See Appendix A for methodology.)


                                                  i
Results

DoD fielded a general awareness training module, but is still developing leadership and law
enforcement training modules to complete the TIP training package. A DoD instruction for the
TIP program has been drafted.

The DoD IG developed a Web-based TIP
survey to help gauge TIP awareness                    Web-Based Survey Participants- All Categories-10,331
throughout DoD and to solicit ideas for
                                                                               Other                     USG Civilian
improving the DoD TIP program. The Web-                                        3.24%
                                                                                          DoD Civilian
                                                                                                           0.26%
                                                                                            12.04%
based survey results are a snapshot of TIP                                                                US Contractor
awareness among respondents and are not                                                                      2.99%
intended to predict future outcomes. (See
Appendix A—Methodology, Appendix G—
Web-Based Survey Questionnaire, and
Appendix H—Web-Based Survey Results.)                            US Military
A total of 10,331 personnel took the                              81.46%
Web-based survey.



                                                  Web-Based Survey Participants-Military-8,411 Out of 10,331
The military (active and reserve) made up the                                   Marines
majority of the personnel who took the                                          1.20%          Navy
                                                           Coast Guard
Web-based survey. The chart to the right                         0.16%
                                                                                               5.02%                      Air Force
shows breakout by Military Service. The                                                                                   34.32%
majority of the participants were Army with
4,895 participants, followed by the Air Force
                                                          Army
with 2,975 participants. The Navy, Marines,
and Coast Guard had 431, 100, and 10,                    59.30%

respectively.


A key question on the Web-based survey was: “Have you received information on the U.S.
Government policy regarding Trafficking in Persons?” The chart below shows responses to that
                                                  question.

                      I don't know                      Eighty percent of the Web-based survey
            No             4%                           participants stated that they were aware of
           16%
                                                        the U.S. policy regarding TIP.

                                                        The question was also asked during the
                                                        small group sensing sessions.
                                                        Approximately 80 percent of the participants
                                     Yes
                                     80%
                                                        stated that they had received information on
                                                        TIP.
     Have You Received INFO on USG TIP Policy?


                                                 ii
                                               Another key question asked: “Was the
          I don't know                         information easy to understand?” About 87
 No          10%                               percent of the survey participants who answered
 3%
                                               “yes” to having received information on the
                                               Government TIP policy stated that they easily
                                               understood the information. Sensing session
                                               participants commented that the training should
                                               include a military scenario on how criminal
                                               organizations use commercial sex services to fund
                                               terrorist organizations. At least 50 percent
                               Yes             of the sensing session participants (excluding
                               87%             United States Forces Korea [USFK] members)
      Was TIP INFO Easy to Understand?         stated that they did not understand how the
                                               military was involved in TIP.

Conclusions

DoD has made significant progress to implement a comprehensive program for combating TIP.
Training for all deploying Service Members, civilians, and DoD contractors has been fielded.
Significant work remains to ensure an ongoing and mature anti-TIP program is fielded and
institutionalized. Commanders do not see their “authority outside the gate” as a significant
barrier to the implementation of an effective TIP program.

DoD Policy and Instructions. DoD has yet to publish a directive or the DoD TIP program
implementing instructions. Hence, program organization, metrics, and resources are ad hoc and
not institutionalized. For example, because no dedicated funds are allotted to combat TIP, DoD
Components use their operating budgets to develop and implement TIP programs and actionable
objectives. The DoD Directive or implementing instructions should be published as soon as
possible.

TIP Program Awareness. The USFK TIP program, implemented in 2002, effectively
promoted awareness of applicable laws and restrictions regarding TIP. Based on discussions
during the sensing sessions and command interviews, the evaluation team found that the USFK
TIP program was effective in fostering behavioral changes among DoD civilian employees,
contractor personnel, and Service Members. The TIP programs in other DoD components, to
include the Military Services, are less advanced than the USFK program. Some DoD personnel
expressed confusion concerning the SecDef and DepSecDef TIP policy memoranda. In all
instances, additional awareness actions are underway.

Commanders’ Authority “Outside the Gate.” During our visits overseas (see Appendix A),
all Combatant Command (COCOM) and Military Service command officials stated that
adequacy of local laws and international Status of Forces Agreements (SOFA) depend on host
nation support and involvement. Commanders can place establishments off limits, but do not
possess the authority to halt or challenge illegal or undesirable activity “outside the gate” without
local law enforcement conformity and action on the matter. Nevertheless, none of the Military
Service commanders or staff favored revising the SOFA solely to address TIP issues.
Commanders did not perceive a lack of “authority outside the gate” as a significant barrier to the
                                                 iii
implementation of an effective TIP program.

Recommendations
To improve the Department of Defense’s efforts to combat trafficking in persons, we recommend
DoD:

       1. Complete and publish a DoD Directive and/or implementing instruction for the
TIP program that assigns clear roles and responsibilities. (Office of Primary Responsibility
[OPR]: USD[P&R]; Office of Collateral Responsibility [OCR]: COCOMs, Military Services)

       2. Establish and document a requirement for a periodic OSD TIP Coordinating Council
meeting to review issues and to integrate DoD TIP program improvements. USD(P&R) should
consider including the Services’ TIP POCs. (OPR: USD[P&R])

        3. Include TIP training in the Joint and Service institutional training curricula, at all
levels, for both officers and enlisted Service Members. (OPR: USD[P&R]; OCR: Director, Joint
Staff; Military Services)

        4. Include TIP-related considerations when developing plans for establishing new
overseas bases, for example, anti-TIP language in DoD contracts and pre-deployment TIP
training requirements for Service Members, DoD civilian employees, and contractors. (OPR:
USD[P&R]; OCR: Geographic COCOMs, Military Services)

       5. Develop TIP training modules that are based on realistic, military-related TIP
scenarios. (OPR: USD[P&R]; OCR: Military Services)

       6. Establish TIP-related training at all Power Projection Platforms and Mobilization
Stations and other similar pre-deployment training venues. (OPR: Military Services)

        7. Include TIP training and planning as a part of the U.S. Army’s Peacekeeping and
Stability Operations Institute’s mission. (OPR: USD[P&R]; OCR: Army)

        8. Develop TIP policy and program guidance
unique to each COCOM and Military Service. Update
after publication of the DoD directive and/or
implementing instructions. (OPR: COCOMs, Military
Services)

        9. Establish a metric for tracking TIP awareness
training and understanding of TIP-related policy and
programs. The metric should track the total number of
DoD personnel assigned and total number trained, broken
out by military, DoD civilians, and DoD contractors.
(OPR: USD[P&R]; OCR: Military Services)                        Evaluator, Mr. Thomas McKenna briefing
                                                               Marines prior to a sensing session


                                               iv
       10. Establish an OPR for each Service and designate a TIP program officer at each
overseas military installation. (OPR: Military Services)

        11. Establish a memorandum of understanding with local law enforcement and
nongovernmental organizations who work with victims of trafficking in persons and prostitution
at or near overseas military installations. (OPR: Military Services)

       12. Finalize and issue installation-level TIP policy memoranda in accordance with OSD
policy memoranda. Update after publication of DoD directive/implementing instructions.
(OPR: Military Services)

       13. Conduct command evaluations of the effectiveness of TIP awareness training. (This
evaluation should periodically involve the IG, per the DepSecDef policy letter on this subject
[Appendix D].) (OPR: Military Services)

       14. Multi-National Force-Iraq (MNF-I) and Coalition Forces Land Component
Command (CFLCC) conduct a follow-up review to ensure DoD contractors’ compliance with
U.S. law and command policy regarding trafficking in persons. (OPR: MNF-I; OCR: CFLCC)


Additional recommendations for specific Combatant Commands are in the appropriate chapter of
the report.


Management Comments and OIG Response

The Under Secretary of Defense for Personnel and Readiness (USD[P&R]) “concurred with
comment.” The comments addressed actions taken or planned to implement specific
recommendations in the report that listed USD(P&R) as the OPR. The complete USD(P&R)
response is at Appendix J.

The Director, Joint Staff “concurred without comment” regarding the specific recommendation
related to the Joint Staff (Executive Summary [EXSUM] recommendation 3). The Director also
provided a matrix summary of responses from the various COCOMs (addressed separately). The
complete response from the Director is at Appendix J.

The Army Assistant Secretary for Manpower and Reserve Affairs “concurred with
comment” regarding the specific recommendations related to the Army or Military Services.
The Army recommended that the metric referenced in EXSUM recommendation 9 include a
measure of the effectiveness of the TIP program. They also recommended that the DoD policy
directive and/or implementing instructions include standardized requirements and guidelines for
commanders to use when developing memoranda of understanding (EXSUM recommendation
11). The complete Army response is at Appendix K.

OIG Response: We passed the Army recommendations on to the Director, Law Enforcement
Policy and Support in USD(P&R) for possible inclusion in the new DoD TIP directive that is

                                               v
currently out for formal staff comment.

The Navy Assistant Secretary for Manpower and Reserve Affairs and The Deputy Naval
Inspector General for Marine Corps Matters/Inspector General of the Marine Corps
“concurred” and assigned an OPR to the specific recommendations related to the Military
Services. The complete Navy and Marine Corps response is at Appendix K.

The Air Force did not respond to our request for Management Comments. We will ask them to
respond to the final report within 90 days of publication.

The U.S. Pacific Command (PACOM) “reviewed the report” and only had “two minor
comments,” editorial in nature, which we included in the report. Based on this response, we
concluded that they “concurred” regarding specific recommendations in the report related to
Geographic COCOMs, COCOMs, or PACOM. The complete PACOM response is at
Appendix L.

United States Forces Japan (USFJ) initially “nonconcurred” with the recommendations for
USFJ on page 25 of Chapter 3, based on their view that Service Member training was a Service
Component responsibility. They also provided some editorial comments on that section of the
report that would improve the accuracy. The complete USFJ response is at Appendix L.

OIG Response: We incorporated their editorial comments, reworded recommendation 1 on
page 26 of Chapter 3 and eliminated the original recommendation 3, replacing it with a new
recommendation that was based on USFJ comments. USFJ reviewed these changes and
“concurred” with the report and the USFJ recommendations.

United States Forces Korea (USFK) “concurred” with the report and the recommendation for
USFK in Chapter 3, page 30. The complete USFK response is at Appendix L.

The U.S. European Command (EUCOM) “concurred with comment” regarding specific
recommendations in the report related to Geographic COCOMs, COCOMs, or EUCOM. They
stressed that training individual Service Members was a Service Responsibility vice a COCOM
responsibility, which we noted in Chapter 4 under the paragraph on “TIP Training
Responsibility.” The complete EUCOM response is at Appendix L.

OIG Response: Based on EUCOM comments, we made changes to Chapter 4 in the paragraphs
on “Senior Leader Involvement,” Commander’s Reactions,” and “NGO Corruption in Bosnia.”
We also reworded the EUCOM recommendation 5 in Chapter 4 to reflect the Service Component
responsibility to put establishments off limits if they are a front for prostitution.

The U.S. Central Command (CENTCOM) “concurred with no critical comments.” They
addressed actions taken or planned to implement specific recommendations in the report related
to Geographic COCOMs, COCOMs, or CENTCOM. The complete CENTCOM response is at
Appendix L.

The U.S. Northern Command (NORTHCOM) “concurred” with the report and specific
recommendations in the report related to Geographic COCOMs, COCOMs, or NORTHCOM.
                                               vi
Their complete response is at Appendix L.

The U.S. Southern Command (SOUTHCOM)“concurred with comment” regarding specific
recommendations in the report related to Geographic COCOMs, COCOMs, or SOUTHCOM.
They recommended rephrasing Executive Summary recommendation 8—“Develop TIP policy
and program guidance unique to each COCOM and Military Service. Update after publication of
the DoD directive and/or implementing instructions”—to read “Develop TIP policy and program
guidance unique to each COCOM and Military Service after publication of the DoD directive
and/or implementing instructions.” The complete SOUTHCOM response is at Appendix L.

OIG Response: Current policy letters from the Secretary of Defense, the Deputy Secretary of
Defense, and USD(P&R) (Appendix D) are sufficient to develop basic COCOM TIP policy and
program guidance.

The U.S. Special Operations Command (SOCOM) “concurred” with the report and specific
recommendations in the report related to COCOMs or SOCOM. The complete SOCOM
response is at Appendix L.

The U.S. Transportation Command (TRANSCOM) “concurred” with the report and specific
recommendations in the report related to COCOMs. The complete TRANSCOM response is at
Appendix L.

The U.S. Strategic Command (STRATCOM) “concurred” with the report and specific
recommendations in the report related to COCOMs. Their response noted actions taken or
proposed to implement the report’s recommendations. The complete STRATCOM response is at
Appendix L.

The U.S. Joint Forces Command (JFCOM) “concurred” with the report and specific
recommendations in the report related to COCOMs. The complete JFCOM response is at
Appendix L.

Multi-National Force-Iraq (MNF-I) and Coalition Forces Land Component Command
(CFLCC) “concurred” with report and specific recommendation in the report related to MNF-I
and CFLCC. Their response was included in the CENTCOM response and is at Appendix L.



                                 Return to Table of Contents




                                             vii
Page intentionally left blank




            viii
Background and Overview

Trafficking In Persons Defined. The recruitment, transportation, transfer, harboring or receipt
of persons by means of threat or use of force or other forms of coercion, abduction, fraud,
deception, abuse of power, or of a position of vulnerability; or giving or receiving payments or
benefits to achieve the consent of a person having control over another person, for the purpose of
exploitation. Exploitation shall include, as a minimum, the exploitation of the prostitution of
others or other forms of sexual exploitation, forced labor or services, slavery or practices similar
to slavery, servitude, or the removal of organs. 1

Historical Perspective. In March 2002, a reporter from the Fox television affiliate in Cleveland,
Ohio, aired a report that women trafficked from the Philippines, Russia, and Eastern Europe
were forced into prostitution in bars servicing the U.S. military in South Korea.

In May 2002, 13 members of Congress requested a “thorough, global, and extensive”
investigation into the publicized allegation that U. S. military leadership in Korea was implicitly
condoning sex slavery. (See Appendix B—Congressional Letters.)

In December 2002, a National Security Presidential Directive (NSPD-22) instructed that Federal
agencies strengthen their collective efforts, capabilities, and coordination to support the policy to
combat trafficking in persons. (See Appendix C—NSPD-22.)

In 2003, the Department of Defense Inspector General (DoD IG) initiated a Human Trafficking
Assessment Project in South Korea and released the report on the “Assessment of DoD Efforts to
Combat Trafficking in Persons, Phase I—United States Forces Korea,” in July 2003. (See
www.dodig.mil/fo/Foia/H03L88433128PhaseI.PDF.)

A second phase of this assessment focused on the European theater, specifically Bosnia-
Herzegovina and Kosovo, resulting in a December 2003 report on the “Assessment of DoD
Efforts to Combat Trafficking in Persons, Phase II—Bosnia-Herzegovina and Kosovo.” (See
www.dodig.mil/fo/Foia/HT-Phase_II.pdf.)

The results of the assessment project indicated that awareness training, along with leader focus,
were viable tools needed to combat human trafficking. (See Appendix A- Methodology, Prior
Coverage.)

On September 25, 2003, two members of Congress requested a DoD IG “follow-up on
investigations [Korea and the Balkans] by sampling and visiting, as appropriate, other bases in
South Korea and around the world about what steps have been taken to address human sex
trafficking.” (See Appendix B.) The letter expresses concerns about alleged U.S. military
personnel and contractor involvement in sex trafficking.

On July 1, 2004, The Washington Post published an allegation that a DoD contractor, Kellogg,
Brown, and Root (KBR), was engaged in debt bondage practices involving Indian nationals. The
Department of State (DOS) asked OSD to look into the validity of a statement from the article:

1
    United Nations’ definition of trafficking in Persons:
    www.unodc.org/unodc/en/trafficking_human_beings.html
                                                      1
“A spokeswoman for the Army, which manages the KBR contract, said the responsibility for the
investigation rests with the company.” It was determined that an Army Public Affairs officer
made the statement. OSD requested that DoD IG look into these labor-related issues. Chapter 7
of this report discusses the actions taken on this
allegation and other labor issues within Iraq.

DoD Population. Persons affiliated with DoD                                       DoD Population
have a relatively high probability of exposure to
trafficked persons or TIP related activities. As of
February 2006, the DoD, the nation’s largest                                                   AD
                                                                                      RET
                                                                                               27%
employer, had a total force of 3.3 million, with 1.4                                  38%
million men and women on active duty, 654,000                                            CIV
                                                                                              RC
Government civilians, and 1.2 million volunteers                                         12%
                                                                                             23%
serving in the Guard and Reserve. 2 An additional
2.0 million retirees and families receive DoD benefits.
Many of these personnel are deployed at locations                    Figure 1. Percentage break out of the Active
around the globe, often in locations known                           duty (AD), Reserve components (RC), civilians
for TIP-related activities.                                                          and retirees.

DoD Contractors. DoD contractors and subcontractors also have a high probability of exposure
to TIP-related activity. DoD has contracted out many of its support requirements for goods and
services. As of fiscal year 2005 (FY 2005), 92,416 companies have DoD contracts. 3 This total
represents the number of unique prime contractors doing business with the DoD during FY 2005.
With few exceptions, place of performance is based on the location where the work is performed.
In many cases, domestic and foreign contractors have multiple contracts with places of
performance in the U.S. and overseas.

Out of the 92,416
companies with         US Based Contractor Companies                         US Based Contractor Companies
                                  Total =83,808                                       Total =8,608
DoD contracts in
FY 2005, 83,808   100,000                                           10,000
were U. S. based   80,000                                             8,000
and 8,608 were     60,000                                             6,000
based overseas.    40,000 82,231                                      4,000           8,371
Figure 2 depicts   20,000                                             2,000    138               94
                                    549     1,028
                        0                                                  0
this and also               CONUS   OCONUS     BOTH                            CONUS   OCONUS    BOTH
shows the place
of performance
break out between                  Figure 2. Contractor Basing and Place of Performance
CONUS and OCONUS,
or both.                                             Source: See Footnote 3.




2
    Guard: 197,776; Reserves: 875,024 (Does not include Individual Readiness Reserves -1,322,752).
3
    From the Defense Contract Action Data System, which accounted for over 1.3 million individual contract actions
    and $269 billion dollars during FY05. The system is maintained by the Statistical Information Analysis Division
    of the Defense Manpower Data Center.

                                                          2
The task of educating and enforcing the laws and regulations on trafficking in persons is a
challenge to the entire DoD population, including the large number of DoD contractors.

Congressional Testimony. On September 21, 2004, the DoD IG testified before Congress at a
hearing titled “Enforcing U.S. Policies against Trafficking in Persons: How is the U.S. Military
Doing?” Senator Clinton asked if the IG would be considering labor trafficking and debt
bondage issues, as well as sex trafficking, within the inspection process. The IG stated: “Yes.
In fact, when I found out about the Indian allegation [on debt bondage], I immediately put on my
oversight hat and we’ll follow up if there is any DoD nexus there to make sure that we are
turning every stone.” 4 Additionally, the DoD Acting Inspector General testified before Congress
on June 21, 2006, providing an update on OIG initiatives
into the area of human trafficking. 5

Historical and Cultural Issues Regarding Commercial
Sex. Commercial sex is a historical and cultural issue that
complicates DoD efforts to combat TIP. The sex slave trade
can be traced back to at least before ancient Babylon. “It is
likely that commercial prostitution derived directly from the
enslavement of women and the consolidation and formation
of classes. Military conquest led to the enslavement and
sexual abuse of captive women in the third millennium           Figure 3. Hilltop Club located near the
B.C. As slavery became an established institution, slave-       Young Chon Hotel. In S. Korea (Circa
owners rented out their female slaves as prostitutes, and       1977) (51st FW Archives)
                                                              6
some masters set up commercial brothels, staffed by slaves.” Military personnel receiving
sexual services from local women in the areas surrounding the camps or bases is a well-known
and documented fact. There are several books and reports about women that became military-
base prostitutes during the Philippine occupation, Korean War, and Vietnam War. Some women
used prostitution as a means to escape poverty, especially during the Korean War. 7

Steps Taken to Rectify the Historical Abuse of Women. In 1974, a Commission on Human
Rights convened to revise the 1949 Universal Declaration of Human Rights. 8 This commission
established guidelines for the following:

      •   Prevention of prostitution
      •   Rehabilitation of persons involved in prostitution
      •   Repression in the traffic of persons
      •   Prevention and treatment of venereal disease
      •   Organization of global programs for the prevention of international prostitution.



4
    www.dodig.mil/fo/JES_TIP_Testimony_092104.pdf
5
    http://www.dodig.mil/fo/Final%20DoD%20OIG%20TIP%20Testimony%2021%20Jun%2006%201400.pdf
6
    Lerner, G., 1986, The Creation of Patriarchy, New York: Oxford University Press
7
    Katharine H. S. Moon, Sex Among Allies: Military Prostitution in U.S. - Korea Relations (New York: Columbia
    University Press, 1997) 28.
8
    This declaration expresses an ethic of responsibility towards the equality of all human beings.
                                                        3
United Nations Actions. In 1998, the United Nations (UN) General Assembly established a
committee to negotiate an international convention against transnational organized crime. In
2000, the protocol to prevent and combat trafficking in persons was added to this convention.

U.S. Government Actions. The U.S. Government (USG):

      •   Enacted the Trafficking Victims Protection Act (TVPA), Public Law (P.L.) 106-386,
          which authorized the provision of a number of benefits and services to trafficking
          victims. (October 2000) 9
      •   Enacted the Military Extraterritorial Jurisdiction Act (MEJA), giving the U. S.
          Government the authority to prosecute DoD-affiliated civilians and contractor personnel
          who commit felony offenses while overseas. (November 2000)
      •   Established the Office to Monitor and Combat Human Trafficking in the U.S.
          Department of State (DoS). This office is designed to integrate the USG's enforcement
          and other response efforts in combating TIP. (February 2002)
      •   Published the National Security Presidential Directive 22 (NSPD 22) establishing a zero
          tolerance policy on TIP. (December 2002)
      •   Published a Federal Acquisition Regulation interim rule on TIP. (April 19, 2006)

DoD Actions. DoD:
      •   Published Deputy Secretary of Defense (DepSecDef) and Secretary of Defense (SecDef)
          policy memoranda establishing a “zero tolerance” on TIP. (January 2004/September
          2004—See Appendix D.) The memoranda directed that DoD and commanders:

             — Establish a systemic method for evaluating efforts to combat trafficking in persons
               (TIP) as part of ongoing evaluation programs conducted by IG organizations
             — Ensure units are trained to understand and recognize “indicators” of TIP
             — Use all of the tools available, including DoD Inspectors General and
               criminal investigative organizations, to combat these prohibitive activities.
      •   Published an Undersecretary of Defense (Personnel and Readiness) (USD [P & R])
          memorandum establishing a requirement for TIP awareness training for deploying DoD
          personnel. (November 2005—See Appendix D.) (The TIP awareness training is
          available at www.projects.aadlcolab.org/tip/.)
      •   Worked with North Atlantic Treaty Organization (NATO) to establish a zero tolerance
          for NATO forces and staff. (June 2004—See Appendix D.)
      •   Published the DoD instruction implementing the MEJA. (See
          www.dtic.mil/whs/directives/corres/pdf/i552511_030305/i552511p.pdf.) (March 2005)
      •   Published new specification on Patronizing a Prostitute, as an addition to the existing
          charge of Pandering and Prostitution under Article 134 of the Manual for Courts-Martial
          (MCM). (October 2005) (See www.dod.mil/dodgc/olc/docs/EO13387.pdf.)



9
    www.vitalvoices.org/files/docs/VTVPA%202000.pdf
                                                      4
   •   Coordinated a Defense Federal Acquisition Regulation interim rule that will require a TIP
       related contract clause in all DoD contracts. (Projected release December 2006.)

Non-governmental Organizations (NGOs) and TIP. Non-governmental organizations
                    (NGOs) are very much engaged in solving problems associated with TIP.
                    The evaluation team met with NGO representatives to get their perspective
                    on the problem of TIP as it relates to the military. There are many NGOs that
                    have instituted human rights programs built around TIP. For example, Vital
                    Voices, a global partnership, empower women who are leading social,
economic, and political progress in their countries. Equality Now, another NGO, is an
international human rights organization dedicated to actions promoting the civil, political,
economic and social rights of girls and women, and they are vigilant in combating trafficking.
Equality Now was adamant in ensuring DoD understood that support for the
commercial sex industry perpetuates the abuse of women and undermines
efforts to combat sex trafficking. These organizations have subject matter
experts who have provided a keen perspective and in-depth information to DoD
on trafficking in persons. Appendix J lists other NGOs that are involved in
combating trafficking in persons.

Press Reports. Soon after the Fox news report aired in March 2002, media headlines criticized
DoD for its lack of efforts to stop TIP. Some of the headlines follow:

   •   “Filipina and Russian women are being sold into sexual slavery in the seedy bars and
       nightclubs that serve U.S. military bases in South Korea” (Base Instincts: August 12,
       2002).
   •   “The United Nations, human trafficking and prostitution” (World Socialist Web site
       Bosnia: August 21, 2002).
   •   “Thousands of women forced into sexual slavery for U.S. servicemen in South Korea”
       (Feminist Daily News Wire: September 9, 2002).
   •   “Does U.S. abet Korean sex trade?” (St. Petersburg Times: December 9, 2002).
   •   “The U.S. military whitewashes the exploitation and trafficking of women in S. Korea”
       (Freelance writer, College Park, Maryland Base Intentions: May 2004).
   •   “U.S. stalls on human trafficking; Pentagon has yet to ban contractors from using forced
       labor” (Chicago Tribune: December 25, 2005).

Evaluation Methodology

On November 18, 2005, after preliminary inquiries into the issues highlighted in the
congressional letter and press reports, we announced this evaluation. This report examines
actions taken by OSD, the Joint Staff, the Services, selected Combatant Commands, and
installations to combat trafficking in persons.




                                               5
The objectives of the evaluation were:

        a. Determine if DoD directives, implementing
instructions, organization, metrics, and resources are adequate
for the DoD components to develop implementing programs
with actionable objectives.

        b. Determine if TIP training effectively promotes
awareness of applicable laws and restrictions regarding TIP, as
well as fostering behavioral changes among DoD civilian
employees/contractor personnel/Service Members

        c. Determine if laws and international agreements are sufficient to give commanders the
requisite authority “outside the gate.”

We conducted the evaluation in three phases.

       a. Phase 1: Research and Preparation. (1) The team conducted research and document
review and discussed the evaluation topics with the OSD, DOS, the Office to Monitor
Trafficking In Persons and other selected agencies. (2) We also posted a Web-based survey on
the DoD IG Web Site. (See Appendix G—Web-Based Survey Questionnaire, and Appendix
H—Web-Based Survey Results.)

        b. Phase 2: Unit Visits/Execution.
The evaluation team visited units and
organizations to gather facts and collect
data through command interviews, small
group sensing sessions, and document
reviews.

       c. Phase 3: Report Completion.
The team analyzed data to formulate
appropriate observations and recommendations.


See Appendix A—Methodology for additional                Figure 4. Maj Richard Higdon, a DoD IG evaluator,
details.                                               conducting a sensing session with the Marines in Hawaii




                                   Return to Table of Contents




                                                6
          Chapter 1 – Office of the Secretary of Defense/Joint Staff


                                Objective: Determine if OSD and the Joint
                                Staff (JS) developed directives, implementing
                                instructions, organization metrics, and resources
                                that are adequate for the DoD Components to
                                develop implementing programs with actionable
                                objectives.



Office of the Secretary of Defense:
OSD is the principal staff element of the Secretary of Defense for policy development, planning,
resource management, fiscal, and program evaluation responsibilities. 10

The Under Secretary of Defense for Personnel and Readiness (USD[P&R]) is responsible for the
DoD TIP program. The Principal Deputy, Under Secretary of Defense for Personnel and
Readiness (PDUSD[P&R]), is the Department lead.

The Director, Law Enforcement Policy and Support (LEP&S), is the Department coordinator,
and he is a staff of one who manages the DoD TIP program. According to the NSPD–22,
“Agencies shall review their internal structures, personnel requirements, capabilities, information
systems, professional education programs, training procedures, legislative authorities, and
budgets to accommodate the provisions of this directive . . . . Departments and agencies shall
ensure that all of the appropriate offices within their jurisdiction are fully trained to carry out
their specific responsibilities to combat trafficking.
This includes interagency cooperation and coordination on the
investigation and prosecution of trafficking.” To manage
NSPD-22 and SecDef requirements, LEP&S needs additional resources
                                                                                         General
to handle all TIP-related requirements in a timely                              Legis
                                                                                         Council
                                                                                                  Education /
manner. Regardless, OSD has determined that, given higher                      Affairs            Training
priorities during a time of war, LEP&S staffing is adequate.
                                                                             Joint                          Overseas
There is no budget line in DoD for TIP.                                      Staff           PDUSD
                                                                                                            Contracts
                                                                                             (P&R)
                                                                                             (OPR)

OSD created an ad hoc staff to coordinate TIP program activities.
                                                                    NATO                         Public
There are dedicated TIP program points of contact (POCs) in the     Policy                       Affairs
Offices of the General Council, Education and Training, Overseas
Contracting, Public Affairs, Undersecretary of Defense-Policy                USD
                                                                                          USD
                                                                             AT&L
(USD[P]), USD Acquisition, Technology, and Logistics (USD                                  (P)

[AT&L]), plus representatives of the Office of NATO Policy,
 office of the Joint Chiefs of Staff (OJCS), and Legislative      Figure 5. OSD internal TIP coordinating staff
Affairs. Although there are POCs to work issues, they do not

10
     www.defenselink.mil/osd/
                                                        7
have an organized venue where they all meet and discuss issues as an integrated, collective
group. Moreover, Services’ TIP POCs are not included in this ad hoc network.

DepSecDef published the DoD basic TIP “zero tolerance” policy memorandum on January 30,
2004 (Appendix D). SecDef reinforced this policy in his September 16, 2004, memorandum
(Appendix D). In addition, on November 17, 2004, USD(P&R) issued training guidance in a
directive-type memorandum (Appendix D). These documents set the TIP policy parameters and
objectives for the Military Services and Combatant Commanders and were distributed through
command channels.

Trafficking Victims Protection Reauthorization Act of 2005. The Trafficking Victims
Protection Reauthorization Act of 2005 (TVPRA 05) amends the Trafficking Victims Protection
Act of 2000 and directs the U.S. Agency for International Development (USAID), the DoS, and
DoD to incorporate anti-trafficking and protection measures for vulnerable populations,
particularly women and children, into their Departments’ post-conflict and humanitarian
emergency assistance and program activities. More information and a link to TVPRA 05 are on
the DoS Web Site at: www.state.gov/g/tip/rls/61106.htm. TVPRA 05 directs that DoS and
USAID, in consultation with DoD, conduct a study regarding the threat and practice of
trafficking in persons generated by post-conflict and humanitarian emergencies in foreign
countries. USAID led the study and provided the report to Congress.

United States Government Interagency Cooperation and Coordination. SecDef is a member
of the President’s Interagency Task Force to Combat Trafficking in Persons. The President’s
Interagency Task Force, chaired by the Secretary of State, meets annually. The Senior Policy
Operating Group supports the President’s Interagency Task Force and meets quarterly to
coordinate interagency anti-TIP actions for the USG program. The PDUSD(P&R) attends the
Senior Policy Operating Group. The Department works with its counterpart TIP offices in other
Federal agencies on a regular basis to ensure that DoD TIP program initiatives and actions
support the USG program. (See Appendix E.)

Joint Staff (JS):
The Joint Staff (JS) assists the Chairman of the Joint Chiefs of Staff in accomplishing his
                                        responsibilities for the unified strategic direction of the
                                        combatant forces, operation under unified commands,
                 PACOM
                                        and for integration into an efficient team of land, naval,
         TRANS                          and air forces. The JS is composed of approximately
          COM            EUCOM
                                        equal numbers of Service Members from the Army, Navy
                              STRAT
                                        (with 20 percent from the Marine Corps), and Air Force.
      SOCOM                          COM
                      JS
                                           The Joint Staff trafficking in persons (JS TIP)
       CENT                        NORTH   coordinator is the Chief, National Security Law
                                    COM
       COM                                 Branch within the J-5, International Negotiations
              SOUTH        JFCOM
               COM                         Division. The coordinator acts as the liaison between
                                           OSD and the COCOMs. His duties include providing
                                           guidance and advice to COCOMS regarding the TIP
        Figure 6. Combatant                program. The JS TIP coordinator helps the COCOMs
             Commands
                                           establish and implement TIP policy, training
                                                   8
programs, demand reduction strategies, host nation(s) cooperation strategies, and an
evaluation system.

Finally, the JS TIP coordinator ensures that all JS-assigned personnel complete the annual
TIP training through their respective Service TIP training programs. Accordingly, the
coordinator maintains contact with the Service TIP coordinators. The JS TIP Coordinator
sends a Joint Staff Action Process form to the COCOMs and the Services requesting
information to confirm actions completed, such as TIP online training.

OSD/JS Actions Taken/Proposed
Major OSD/JS Trafficking In Persons (TIP) initiatives:

   •   TIP training programs
       — Developed a pre-deployment trafficking awareness training module that is mandatory
          for all military members, DoD civilian employees, and DoD contractors who are
          going overseas. This awareness training will be extended to DoD military personnel
          and civilian employees through their Service components online modules or class
          room presentations by the end of FY 2006. Contractors will conduct training for their
          employees as required by the Defense Federal Acquisition Regulation. The overall
          goal of the training is to change attitudes about the sex exploitation industry and
          human trafficking and educate DoD personnel and contractors on the criminality and
          human rights consequences of trafficking in persons.
       — Developed TIP awareness training, in coordination and collaboration with other
          Federal agencies and NATO. The Web-based interactive training module is located
          at: www.jkddcjmo.org.
       — Drafted DoD policy directive. Coordination of the draft documents is ongoing and
          estimated publication date is January 2007. One area that needs clarification is the
          role and responsibilities of the Military Services and the COCOMs in combating TIP.
          The Military Services will be responsible for the TIP awareness training program for
          members of their department. The COCOMs will combat TIP within their respective
          areas of responsibility.
       — Developing TIP law enforcement and leadership training modules. (OSD has not
          projected a target date for completion.)

   •   DoD contractors and “zero tolerance” policy
       — Supported publication of a Federal Acquisition Regulation (FAR) interim rule on
         combating TIP on April 19, 2006. The interim rule applies to service contracts.
         The public comment period closed on June 19, 2006.
       — Coordinated on publication of the Defense Federal Acquisition Regulation
         Supplement (DFARS) interim rule (DFARS Case 2004-D017, October 26, 2006) that
         requires a TIP-related contract clause in DoD contracts performed outside the United
         States. Contractors performing DoD contracts outside the United States have to
         comply with U.S. law, host nation law, and local theater directives on combating
         TIP.
       — Addressing contractor responsibilities in both the FAR and DFARS interim rules for
         training employees on TIP and monitoring the conduct of their employees to ensure
         compliance. Both rules also address the requirement for the contractor to include
                                                9
           TIP provisions in subcontracts. This “zero tolerance” policy flows down to all
           subcontractors.

   •   Military Extraterritorial Jurisdiction Act
       — Provided a legal basis for arrest and prosecution of DoD-affiliated civilian and
          contractor personnel who commit felony federal offenses or war crimes while
          supporting the DoD mission overseas.
       — Expanded Military Extraterritorial Jurisdiction Act (MEJA) in the FY 2005 Defense
          Authorization Act to include civilians working under other Federal agency contracts
          that support DoD operations.
       — Published in March 2005 the DoD instruction (regulation) implementing the MEJA.
          The new instruction is available at:
          www.dtic.mil/whs/directives/corres/pdf/i552511_030305/i552511p.pdf as “Criminal
          Jurisdiction Over Civilians Employed By or Accompanying the Armed Forces
          Outside the United States, Certain Service Members, and Former Service Members.”

   •   Prohibition on patronizing a prostitute
       — Entered on September 15, 2004 a recommended amendment to the Manual for
          Court’s Martial (MCM), “Patronizing a Prostitute.” On October 14, 2005, the
          President signed Executive Order 13387, “2005 Amendments to the Manual for
          Courts-Martial, United States,” that expands Article 134, Uniform Code of Military
          Justice (UCMJ), to include the offense of "Patronizing a Prostitute." (See
          www.dod.mil/dodgc/olc/docs/EO13387.pdf.
       — Amended in October 2005 the Manual for Courts Martial (MCM). As a result,
          patronizing a prostitute is now a chargeable offense under the UCMJ.

Observations
During this evaluation, the responsibilities and roles of the Combatant Commands versus the
Military Services became an issue with regard to training DoD personnel on TIP. The DoD
policy memorandums do not delineate these roles. The OSD TIP coordinator advised the team
that the forthcoming TIP DoD directive/instructions will state that “. . . the military departments
(Services) will implement a TIP awareness training program for all members of their department,
in accordance with DoD TIP policy . . . Combatant Commanders are responsible for combating
TIP within their respective areas of responsibility . . . .”

TIP is an unfunded requirement that competes against all other DoD requirements.

Conclusions
DoD should publish a DoD Directive and/or implementing instruction to further improve the
OSD and JS TIP programs.

OSD has a program in place to manage TIP policy, programs, and issues; the program has
minimum resources due to competing priorities. Management should expedite completion and
release of the DoD policy directive and/or implementing instruction. More than 2 years have
elapsed since DepSecDef published the January 2004 policy memorandum.

                                                10
OSD and JS have ongoing TIP initiatives to improve the DoD ability to combat TIP. Because no
separate budget line for TIP exists, OSD/JS developed an informal network of POCs who
manage and implement the DoD TIP program. That network should be institutionalized.

OSD and JS have made progress in the use of information systems and training procedures to
expand TIP awareness programs.

Recommendations for the Office of the Secretary of Defense and Joint Staff

       1. Complete and publish the DoD Directive and/or implementing instruction for the TIP
program that assigns clear roles and responsibilities. (OPR: USD[P&R]; OCR: COCOMs,
Military Services)

       2. Establish and document a requirement for a periodic OSD TIP Coordinating Council
meeting to review issues and to integrate DoD TIP program improvements. USD(P&R) should
consider including the Services’ TIP POCs. (OPR: USD[P&R])

        3. Include TIP training in Joint and Service institutional training curricula, at all levels,
for both officers and enlisted Service Members. (OPR: USD[P&R]; OCR: Director, Joint Staff;
Military Services)

        4. Include TIP-related considerations when developing plans for establishing new
overseas bases, for example, anti-TIP language in DoD contracts and pre-deployment TIP
training requirements for Service Members, DoD civilian employees, and contractors. (OPR:
USD[P&R]; OCR: Regional COCOMs, Military Services)

       5. Develop TIP training modules that are based on realistic, military-related TIP
scenarios. (OPR: USD[P&R]; OCR: Military Services)

        6. Establish a metric for tracking TIP awareness training and understanding of TIP-
related policy and programs. The metric should track the total number of DoD personnel
assigned and total number trained, broken out by military, DoD civilians, and DoD contractors.
(OPR: USD[P&R]; OCR: Military Services)

Management Comments and OIG Response
The Under Secretary of Defense for Personnel and Readiness (USD[P&R]) “concurred with
comment.” The comments addressed actions taken or planned to implement specific
recommendations in the report that listed USD(P&R) as the OPR. The complete USD(P&R)
response is at Appendix J.

The Director, Joint Staff “concurred without comment” regarding the specific recommendation
related to the Joint Staff (recommendation 3 above). The Director also provided a matrix
summary of responses from the various COCOMs (addressed separately). The complete
response from the Director is at Appendix J.
                                   Return to Table of Contents

                                                 11
Page intentionally left blank




             12
                                  Chapter 2—Military Services

Objectives: Determine whether the Military Services TIP training effectively promotes
awareness of applicable laws and restrictions regarding TIP and if the training fosters behavioral
changes among DoD civilian employees/contractor personnel/Service Members.

Determine if laws and international agreements are sufficient to give military commanders the
requisite authority “outside the gate.”



                    Army:
                    The Army conducts both operational and institutional missions. The operational
                    Army consists of numbered Armies, corps, divisions, brigades, and battalions
                    that conduct full spectrum operations around the world. The institutional Army
                    supports the operational Army. Institutional organizations provide the
                    infrastructure necessary to raise, train, equip, deploy, and ensure the readiness
                    of all Army forces. 11

Army Actions Taken/Proposed
      •   The Army designated a General Schedule (GS)-14 as the TIP policy POC within the
          Office of the Assistant Secretary of the Army for Manpower and Reserves Affairs. A
          lieutenant colonel (O-5) within the Army G-3 Training Directorate was designated the
          POC for DoD TIP awareness training throughout the Army. The Army’s TIP zero
          tolerance policy, dated July 24, 2006, applies to all soldiers (active and reserve), DoD
          civilian employees, and affiliated DoD contractors, contractor employees, and
          subcontractor employees. (See www.asamra.army.mil/ctip/index.html.)

Moreover, the Army policy:

      •   Opposes any and all activity associated with human trafficking.

      •   Enforces the law against all those who traffic in persons, as well as those who
          facilitate TIP.

      •   Applies worldwide, even if off duty and off the military reservation.

      •   Requires that commanders identify establishments that should be off limits.




11
     www.army.mil/organization/
                                                  13
      •   Requires immediate awareness training for all DoD military members, civilian
          employees, and contractor personnel who deploy overseas.

      •   Requires that commanders develop a program to assess TIP and related issues (for
          example, prostitution). The program must include awareness training and periodic
          assessments, using the IG and/or other investigative services.

Additionally, the Army:

      •   Posted the DoD TIP awareness training on the Reimer Distant Learning Library (July
          06). This allows the Army G-3 to monitor and track the TIP training requirement. (See
          www.lms.army.mil/DLS.)

      •   Designated the Director, Training Developments Directorate, the Judge Advocate
          General's Legal Center and School, as the Army’s TIP training requirement POC.

      •   Placed TIP policy and additional information on Army Knowledge Online to
          maximize education resources available to Army personnel. There is a link from Army
          Knowledge Online to the TIP awareness training on the Reimer Distant Learning Library.
          The Army recommends that first-time users of the Army Learning Management System
          view the learner log-in instruction vignettes located at www.dls.army.mil/lms_learner-
          login.html, or read the User Guide located at www.dls.army.mil/lms_training.html#2
          before attempting to access the TIP training module. Experienced users may use the
          following link to access the Army Learning Management System and register for TIP
          training using their Army Knowledge Online log-in and password:
          www.lms.army.mil/DLS.

      •   Established an Army Web site dedicated to TIP for ensuring that each Army employee
          knows where to go for TIP policies, training modules, library, frequently asked questions,
          and command resources. (See www.asamra.army.mil/ctip/training.cfm.)




                           Navy:

                           The U.S. Navy maintains, trains, and equips combat-ready naval forces
                           capable of winning wars, deterring aggression, and maintaining freedom
                           of the seas. The Navy includes personnel, ships, aircraft, and shore bases,
                           as well as the Marine Corps. The United States Coast Guard, usually under
                           the Department of Transportation, is assigned to the Navy in times of
                           national emergency. 12




12
     www.navy.mil/navydata/organization/org-top.asp
                                                      14
Navy Actions Taken/Proposed

The Navy designated a commander (O-5) as the TIP POC within the Assistant Secretary of
the Navy for Manpower and Reserves Affairs. A major (Marine O-4) within the Navy’s
Professional Development Branch was designated the POC responsible for distributing TIP
information throughout the Navy.

The Navy established a three-prong approach to provide TIP training as a result of unique
challenges faced by Navy organizations with afloat missions and deployed units. The Navy:

      •   Installed TIP courseware on Navy Knowledge Online. (See www.nko.navy.mil/.) A
          Naval Administrative Message 292/05, dated November 14, 2005, was sent to the
          fleet requiring that sailors take TIP training on Navy Knowledge Online. Completing
          the TIP course on Navy Knowledge Online provides tracking capability. As of May
          10, 2006, the Navy reported that 238,781 personnel completed the TIP course online.

      •   Produced and distributed 3,200 TIP training Compact Disk Read Only Memory (CD-
          ROMs) to all Navy commands and the Armed Forces Information Services-Joint
          Visual Information Services Distribution Activity. This action was designed to
          overcome possible access limitations to Navy Knowledge Online for deployed sailors
          or units stationed outside the continental United States. Naval Administrative
          Message 061/06, dated February 17, 2006, provides detailed instructions on how to
          obtain the TIP CD-ROM. The message also explains how to document the training.

      •   Produced another 2,500 TIP CD-ROMs to ensure availability to fleet units for the
          near future. The Armed Forces Information Services-Joint Visual Information
          Services Distribution Activity handles this additional production. As of May 10,
          2006, the Armed Forces Information Services-Joint Visual Information Services
          Distribution Activity had responded to 108 additional requests and mailed 222 TIP
          CD-ROMs to Fleet activities.



Marine Corps:

                         The U.S. Marine Corps (USMC) is a branch of the U.S. military under the
                         United States Department of the Navy. Originally organized as the
                         Continental Marines in 1775 for ship-to-ship fighting, shipboard security,
                         and to assist in landing forces, by the early 20th century, the Marine Corps
                         had grown both institutionally and organizationally into the dominant
                         advocate for amphibious warfare. The Marine Corps has evolved into a
                         multi-purpose role in the current U.S. military. 13




13
     en.wikipedia.org/wiki/United_States_Marine_Corps
                                                        15
Marine Corps Actions Taken/Proposed
The USMC designated a lieutenant colonel (O-5) as the TIP POC within their Military Personnel
Plans and Policy Division. The POC develops policy and distributes TIP information throughout
the Marine Corps. In April 2005, the Commandant of the Marine Corps sent a message to all
Marines (ALL MARINES 016/05) stating that the Marine Corps opposes any activities that
contribute to TIP. The message directs that Marines demonstrate awareness and behavior
consistent with the National Security Presidential Directive-22 (NSPD-22), Trafficking in
Persons. The Commandant’s message:

      •   Tasked leaders at all levels to ensure that TIP awareness training is completed in
          accordance with the USD(P&R) memorandum, dated November 17, 2004.

      •   Directed DoD civilians and contractors to the training site located at
          www.jkddcjmo.org.

          Additionally, the USMC established additional TIP online courseware. This training is
          available on the Marine Net Course Catalog at: www.marinenet.usmc.mil/portal.




                     Air Force:

                     The mission of the U.S. Air Force (USAF) is to deliver sovereign options for
                     defense of the United States of America and its global interests -- to fly and
                     fight in Air, Space, and Cyberspace. 14




Air Force Actions Taken/Proposed

The USAF designated a GS-13 as the TIP POC within the Air Force Culture/Military Equal
Opportunity Force Sustainment Division, Airmen Development and Sustainment Directorate.
They also assigned a lieutenant colonel (O-5) within the Military Training Policy Division to
serve as the TIP focal point for information flow between installations and their respective major
commands. The AF:

      •   Sent a message on February 27, 2006, stating, in part, “. . . commanders at all levels are
          directed to ensure their units are trained to understand and recognize indicators of the
          serious crime of Trafficking in Persons (TIP). Due to the seriousness of the crime, the
          AF has a zero tolerance approach to trafficking in persons . . . .”

      •   Expanded DoD policies by implementing two types of training—initial and annual
          refresher training for AF military, civilian, and contract personnel. The method of

14
     www.af.mil/main/welcome.asp
                                                   16
       training is the OSD-developed computer-based training. The computer-based training is
       available to major commands through the Air Education and Training Command
       Advanced Distributive Learning Server at https://golearn.csd.disa.mil. Access is also
       available through the AF portal.

   •   Appointed a TIP POC at each major command for tracking and reporting purposes.

   •   Established procedures for monitoring the Department’s TIP program.

   •   Worked with Air Education and Training Command to provide TIP training for family
       members accompanying their sponsors overseas.

As of May 2006, almost 80,000 AF military, civilian, and contractor personnel completed TIP
training by way of the Air Education and Training Command Advanced Distributive Learning
Server site and another 7,000 completed TIP training by other means (some in Korea and Europe
did not have access to the Air Education and Training Command Advanced Distributive
Learning Server site). By October 26, 2006, the AF reported that 80 percent of their personnel
completed initial TIP training. TIP is also a special interest inspection item for the AF Inspector
General.

Conclusions
Training and Promoting Awareness. DoD sent out the first TIP policy memorandum to all the
Military Services on January 30, 2004 (Appendix C). In April 2005, the Marine Corps was the
first Military Service to dispatch a message about TIP and the zero tolerance policy. Today, all
of the Military Services are training their personnel on TIP. The training includes TIP indicators
and how to report suspected TIP activity.

Commanders Authority Outside the Gate. During our visits overseas (see Appendix A), all
Military Service command officials stated that adequacy of local laws and the international
Status of Forces Agreements (SOFA) depend on host nation support and involvement.
Commanders can place establishments off limits, but do not possess authority to halt or
challenge illegal/undesirable activity “outside the gate” without local law enforcement
conformity and action on the matter. Nevertheless, none of the Military Service commanders or
staff favored revising the SOFA solely to address TIP issues. Military Service Commanders did
not see their authority “outside the gate” as a significant barrier to the implementation of an
effective TIP program.

Overall, we conclude that the Military Services provide TIP training and their actions, separately
and collectively, are (1) effectively promoting awareness of the applicable laws and restrictions
regarding TIP, and (2) will enhance understanding of the TIP problem.

Recommendations for the Military Services
     1. Include TIP training in each Service’s institutional training curricula, at all levels, for
both officers and enlisted Service Members. (OPR: USD[P&R]; OCR: Military Services)


                                                  17
      2. Include TIP-related considerations when developing plans for establishing new overseas
bases, for example, anti-TIP language in DoD contracts and pre-deployment TIP training
requirements for Service Members, DoD civilian employees, and contractors. (OPR:
USD[P&R]; OCR: Military Services)

      3. Develop TIP policy and program guidance unique to each Military Service. Update
after publication of DoD directive and/or implementing instructions. (OPR: Military Services)

      4. Establish TIP-related training at all Power Projection Platforms and Mobilization
stations and other similar pre-deployment training venues. (OPR: Military Services)

      5. Include TIP training and planning as a part of the U.S. Army’s Peacekeeping and
Stability Operations Institute’s mission. (One of the Army’s Peacekeeping and Stability
Operations Institute’s missions is to help stabilize and rebuild societies.) (OPR: USD[P&R];
OCR: Army)

       6. Establish a metric for tracking TIP awareness training and understanding of TIP-related
policy and programs. The metric should track the total number of DoD personnel assigned and
total number trained, broken out by military, DoD civilians, and DoD contractors. (OPR:
USD[P&R]; OCR: Military Services)

Management Comments and OIG Response

The Army Assistant Secretary for Manpower and Reserve Affairs “concurred with
comment” regarding the specific recommendations related to the Army or Military Services.
The Army recommended that the metric referenced in Recommendation 6 (above) include a
measure of the effectiveness of the TIP program. They also recommended that the DoD policy
directive and/or implementing instructions include standardized requirements and guidelines for
commanders to use when developing memoranda of understanding. The complete Army
response is at Appendix K.

OIG Response: We passed the Army recommendations on to the Director, Law Enforcement
Policy and Support in USD(P&R) for possible inclusion in the new DoD TIP directive that is
currently out for formal staff comment.

The Navy Assistant Secretary for Manpower and Reserve Affairs and The Deputy Naval
Inspector General for Marine Corps Matters/Inspector General of the Marine Corps
“concurred” and assigned an OPR to the specific recommendations related to the Military
Services. The complete Navy and Marine Corps response is at Appendix K.

The Air Force did not respond to our request for Management Comments. We will ask them to
respond to the final report within 90 days of publication.

                                  Return to Table of Contents




                                               18
Chapter 3—UNITED STATES PACIFIC COMMAND (PACOM)

Objectives: Determine whether U.S. Pacific Command (PACOM) TIP training effectively
promotes awareness of applicable laws and restrictions regarding TIP and if the training fosters
behavioral changes among PACOM civilian employees/contractor personnel/Service Members.

Determine if current laws and international agreements are sufficient to give PACOM
commanders the requisite authority “outside the gate.”



PACOM, in concert with other U.S. Government agencies and regional
military partners, promotes security and peaceful development in the Asia-
Pacific region by deterring aggression, advancing regional security
cooperation, responding to crises, and fighting to win. 15



PACOM Actions Taken/Proposed
PACOM:

      •   Designated a Colonel (U.S. Air Force O-6) as the TIP POC within the PACOM J-1
          Directorate.

      •   Tasked PACOM J-1 to develop an Area of Responsibility (AOR)-specific TIP training
          module.

      •   Drafted a TIP policy letter that assigns responsibilities.

      •   Developed training slides that are made available to PACOM component commands
          directly from the PACOM Web site.

      •   Employed a PACOM IG systemic method for evaluating efforts to combat TIP.

PACOM is:

      •   Developing an AOR specific TIP training module.

      •   Planning to publish specific TIP-related policy upon receipt of DoD TIP
          directives/implementing instructions.




15
     www.pacom.mil/about/pacom.shtml
                                                    19
Results
The PACOM leadership and staff:

      •   Reported no problems with trafficking in persons in Hawaii that had a PACOM nexus.

      •   Trained and deployed units and individuals to many countries designated by the U.S.
          State Department as TIP Tier 2 countries. 16

      •   Relied on the Military Services to conduct TIP awareness training for assigned personnel.

Conclusions
DoD personnel assigned to Hawaii are considered nondeployed. The Military Services have
only recently directed that nondeployed personnel must receive TIP awareness training.
Nevertheless, PACOM and the Military Service commands in Hawaii are taking the appropriate
TIP-related actions. TIP training is underway. PACOM will benefit from a DoD-level directive
and/or implementing instruction for the DoD TIP program. The senior leadership at PACOM
believes they have sufficient authority outside the gates of their installations, in coordination
with local authorities.

Recommendations for PACOM
      1. Develop TIP policy and program guidance unique to
PACOM. Update after publication of DoD directive and/or
implementing instruction.

       2. Complete mandatory TIP awareness training for all
DoD military members, civilian employees, and contract
personnel.

        3. Supplement DoD TIP training, to include unique
cultural and legal considerations for PACOM’s AOR.
                                                                   Figure 7. PACOM' Area of Responsibility
        4. Incorporate provisions in DoD contracts prohibiting
any contractor employee activities that support or promote
trafficking in persons.

      5. Impose suitable penalties on contractors who fail to monitor the conduct of their
employees.

        6. Conduct command evaluations of the TIP program. (These evaluations should
periodically involve the PACOM IG, per the DepSecDef policy letter on this subject [Appendix
D].)



16
     June 2005, State Department Trafficking in Persons Report.
                                                         20
Management Comments and OIG Response

The U.S. Pacific Command (PACOM) “reviewed the report” and only had “two minor
comments,” editorial in nature, which we included in the report. Based on this response, we
concluded that they “concurred” regarding specific recommendations in the report related to
Geographic COCOMs, COCOMs, or PACOM. The complete PACOM response is at
Appendix L.



MILITARY INSTALLATIONS, HAWAII REGION
There are five major military installations in the Hawaii region:

   •   Fort Shafter

   •   Schofield Barracks

   •   Pearl Harbor

   •   Kaneohe Marine Air Station

   •   Hickam Air Force Base



Military Installations, Hawaii Region Actions Taken
   •   Published local base newspaper stories describing TIP.

   •   Published announcements of recent changes to the UCMJ Article 134, adding the
       specification “Patronizing a Prostitute.”

   •   Issued 15th Air Wing Commander Policy Statement, January 11, 2006, “Combating
       Trafficking in Persons.”

Results
We visited Naval Region Hawaii (Pearl Harbor), Kaneohe Marine Air Station, Hickam Air Force
Base, and Schofield Barracks. The units we visited have deployment missions from Hawaii to
locations throughout the PACOM AOR. The IG team reviewed command documentation and
conducted sensing sessions with 188 personnel selected by unit leaders. During sensing
sessions, only 46 percent of participants said they had received training on trafficking in persons.
Additionally, 80 percent of the participants said they had been approached or knew someone
who had been approached or solicited by a prostitute. More than 44 percent of the sensing
                                                21
session participants thought prostitution was legal in Hawaii.

Hawaii statute, section 712-1200, states that prostitution “. . . is illegal in the entire state . . .” 17
Despite the law, prostitutes walk the streets adjacent to Honolulu’s popular Waikiki Beach and
solicit pedestrians. Hawaii’s KGMB 9 News aired a news story on December 12, 2005, detailing
the Federal Bureau of Investigation’s arrest of 19 local citizens who were involved in a nation-
wide prostitution and TIP ring.

Table 1 depicts partial results from the sensing sessions. (See Appendix I for complete sensing
session results.)


                                Table 1. Sensing Session Highlights
                                DoD PERSONNEL ASSIGNED TO HAWAII




                                       Individual Responses                  Yes    No
                Did you receive information regarding U.S. policy on TIP
                from a government source?                                    86    102
                Do you think you would recognize the signs or indicators
                of TIP?                                                      103    85

                Are you familiar with procedures for reporting suspected
                traffickers?                                                 32    156




Conclusion
Military units in the Hawaii Region only recently received Military Service requirements to train
all assigned Service Members on TIP. Hawaii’s military units and commands are taking the
appropriate actions and will benefit from an OSD-level directive and/or implementing instruction
for the DoD TIP program.

Recommendations for Overseas Military Installations
(OPR: Military Services)

         1. Establish a TIP office of primary responsibility and designate a TIP program officer.

      2. Establish a memorandum of understanding with local law enforcement and non-
governmental organizations (NGOs) who work with victims of TIP and prostitution at or near
overseas military installations.



17
     Honolulu Police Department Web site, www.honolulupd.org/nv/morals.htm
                                                      22
Management Comments and OIG Response
The Army Assistant Secretary for Manpower
and Reserve Affairs “concurred with comment”
regarding the specific recommendations related to
the Army or Military Services. They recommended
that the DoD policy directive and/or implementing
instructions include standardized requirements and
guidelines for commanders to use when developing
memoranda of understanding (recommendation 2
above). The complete Army response is at
Appendix K.

OIG Response: We passed the Army recommendations
on to the Director, Law Enforcement Policy and Support          Figure 8. Evaluator, Mr. Thomas McKenna
                                                                briefing Marines prior to a sensing session
in USD(P&R) for possible inclusion in the new DoD TIP
directive that is currently out for formal staff comment.

The Navy Assistant Secretary for Manpower and Reserve Affairs and The Deputy Naval
Inspector General for Marine Corps Matters/Inspector General of the Marine Corps
“concurred” and assigned an OPR to the specific recommendations related to the Military
Services. The complete Navy and Marine Corps response is at Appendix K.

The Air Force did not respond to our request for Management Comments. We will ask them to
respond to the final report within 90 days of publication.




UNITED STATES FORCES JAPAN (USFJ)
United States Forces, Japan (USFJ) supports U.S. forward presence
and ensures bilateral defense cooperation with the Government of
Japan to promote regional stability and deter aggression. Should
deterrence fail, USFJ conducts and supports combat operations in the
region to defend Japan. In peacetime, the Commander, USFJ,
represents the Pacific Commander in relations among U.S. forces and
other Department of Defense elements, the Ambassador, the Japan
Defense Agency, and other agencies of the Government of Japan. 18

The evaluation team visited two major USFJ units at Okinawa—the 18th Wing and the Command
Fleet Activities.

The 18th Wing at Kadena Air Base is one of the largest U.S. installations in the Asia-Pacific
region. The Wing defends U.S. and Japanese mutual interests and provides a responsive staging
and operational air base with integrated, deployable, forward-based airpower. The Wing’s
mission centers around a force of 81 combat-ready fighters and various air refueling, airborne

18
     www.globalsecurity.org/military/agency/dod/usfj.htm
                                                           23
warning and control, and search and rescue aircraft. The Wing also provides infrastructure
support to Army, Navy, and Marine Corps forces assigned to or transiting Kadena.
The Command Fleet Activities Okinawa (CFAO) employs 750 people who provide logistical
support and services to the U.S. Seventh Fleet's air, surface and subsurface units operating in the
Western Pacific. CFAO also provides facilities and support to deployed P-3 Orion patrol
squadrons flying sea-lane surveillance missions out of Kadena.

USFJ Actions Taken
   •   Published USFJ Policy Letter Number 1, “Unwavering
       Professionalism.” (January 2006)

   •   Published the trifold “Our Commitment to Unwavering
       Professionalism.” (March 4, 2005)

   •   Published Service Component/installation-level TIP policy
       statements.

       — Commander, 18th Wing:       “Those Service Members and
           DoD civilians that violate restrictions or participate, or
           support, TIP will be held accountable for their actions,
           as appropriate, under the UCMJ and Public Law.”              Figure 9. Military Newspaper
           (January 11, 2006)

       — Commander, Amphibious Group One: “Commanders must make significant efforts to
            identify and place off-limits an establishment displaying indicators of trafficking
            in persons.” (January 19, 2006)

   •   Published local base newspaper stories describing TIP problems and issues.

Results
Units stationed in the USFJ AOR are considered “forward deployed.” While visiting Kadena Air
Base, the IG team reviewed command documentation and determined that commanders were
keenly aware of the TIP issue and were actively engaged in promoting awareness through policy
memoranda and base newspaper articles.

As a sub-unified command under PACOM, the USFJ Commander initiated an “Unwavering
Professionalism” campaign that addresses many of the underlying components of the TIP issue.
Each of the four Service Components in USFJ fully support the campaign and have implemented
the mandatory TIP training modules for personnel deployed overseas.

Additionally, installation leadership schedules frequent courtesy patrols in the entertainment
districts outside the U.S. installations.

The DoD IG team conducted sensing sessions with 218 personnel selected by unit leaders from
each of the Services serving in Okinawa, Japan. Sixty-one percent of the sensing session
                                                24
participants said they did receive information regarding U.S. policy on Trafficking in Persons.
Of that 61 percent, 84 percent said the information was easy to understand and they knew the
procedures for reporting suspected traffickers. The table below provides partial results from the
sensing sessions in USFJ. (See Appendix I for complete sensing session results.)


                              Table 2. Sensing Session Highlights
                              DoD PERSONNEL ASSIGNED TO USFJ




                                    Individual Responses                Yes    No
             Did you receive information regarding U.S. policy on TIP
             from a government source?                                  133    85
             Do you think you would recognize the signs or indicators
             of TIP?                                                    184    34

             Are you familiar with procedures for reporting suspected
             traffickers?                                               185    33




Conclusions
Forces assigned to USFJ are considered deployed and require TIP awareness training. USFJ
Service Components should take additional actions to strengthen Service Members’ awareness
and understanding of the DoD TIP policies and programs.

Command officials in Okinawa stated that adequacy of local laws and international Status of
Forces Agreements (SOFA) are dependent on host nation support and involvement.
Commanders can place establishments off limits, but do not possess authority to halt or
challenge illegal/undesirable activity “outside the gate” without local law enforcement
conformity and action on the matter. Nevertheless, none of the Military Service commanders or
staff in Okinawa favored revising SOFA solely to address TIP issues. Commanders in Okinawa
did not see their authority “outside the gate” as a significant barrier to the implementation of an
effective TIP program.

Recommendations for USFJ
       1. Create an AOR-specific TIP training module, as required, to supplement DoD TIP
training. Provide the training module to assigned Service Components for execution.

       2. Establish a TIP office of primary responsibility and designate a TIP program officer.

      3. Continue to emphasize Unwavering Professionalism as a way of life for all DoD
personnel in Japan.

                                                  25
Management Comments and OIG Response

United States Forces Japan (USFJ) initially “nonconcurred” with the original
recommendations for USFJ, based on their view that Service Member training was a Service
Component responsibility. They also provided some editorial comments on that section of the
report that would improve the accuracy. The complete USFJ response is at Appendix L.

OIG Response: We incorporated their editorial comments, reworded recommendation 1
(above) and eliminated the original recommendation 3, replacing it with a new recommendation
that was based on USFJ comments. USFJ reviewed these changes and “concurred” with the
report and the USFJ recommendations.



                              UNITED STATES FORCES KOREA
                                         (USFK)

                        United States Forces Korea (USFK) supports the United Nations Command
                        and the Republic of Korea/U.S. Combined Forces Command by coordinating
                        and planning among U.S. Component Commands in Korea; exercises
                        operational control of U.S. Forces assigned as directed by PACOM; and
                        coordinates U.S. military assistance to the Republic of Korea. 19


USFK Actions Taken
The USFK anti-TIP program aggressively attacks the problem of TIP at the “strategic,
operational, and tactical levels.”

Strategically, USFK works closely with the Republic of Korea (ROK) Government to establish
policies, regulations, and legislative changes to mitigate what had been a fertile environment for
prostitution and human trafficking.

At the operational level, USFK employs a command-wide program centered
on a “zero tolerance policy” to combat prostitution and human trafficking
(P&HT), providing the Command’s leadership with programs, resources,
and an organizational framework to combat P&HT. Specifically, USFK
developed a U.S. and ROK hotline for P&HT, additional community service
programs and community councils, and improved U.S. and Korean National
Police coordination.

At the tactical level, USFK has updated soldier-training programs, conducted undercover
operations to identify establishments involved with P&HT, and increased leadership presence
and involvement.


19
     www.globalsecurity.org/military/agency/dod/usfk.htm
                                                       26
USFK has taken the following actions to combat the problem of TIP (not all-inclusive):

   •   Conducts monthly Armed Forces Disciplinary Control Board meeting to review off-
       installation liaison and operations.

   •   Maintains off-limits list of all establishments known or suspected of prostitution or
       human trafficking.

   •   Mandates awareness training of all new arrivals on P&HT.

   •   Includes mandatory P&HT training for all USFK Service Members, DoD civilian
       employees, and invited contractors at the quarterly “New Horizon Day.”

   •   Broadcasts public service announcements on Armed Forces Network (AFN).

   •   Prints recurring articles in base papers.

   •   Instituted hotline for P&HT.

   •   Established P&HT Task Force to investigate Hotline reports.

   •   Developed/published a memorandum of understanding between Headquarters, Area II
       Support Group and Itaewon Club Owners Association to ensure safety, security, and anti-
       prostitution/human trafficking measures.

   •   Established standard operating procedures training for courtesy patrols.

   •   Created posters, fliers, and information cards to educate personnel on the indicators and
       reporting procedures for suspected human trafficking.

   •   Established a P&HT working group, headed by an O-7, to coordinate the command’s
       efforts in combating P&HT.

Results
The anti-TIP efforts in USFK require a significant investment of manpower and money which
may not be sustainable or necessary in other commands throughout the DoD. For example, in
Area II Support Command (Seoul), the Command spends about $952,000 and expends
approximately 17,680 man-hours annually on TIP-related programs. (The South Korean
peninsula is divided into seven Area Support Commands.)

This effort resulted in cultural changes involving all levels of the chain of command and local
business owners. USFK leadership is actively engaging their personnel and the local businesses
that surround military installations. Their goal is to develop alternative business models that
appeal to military personnel and promote entertainment that does not contribute to or attract
demand for trafficked women. Additionally, USFK has taken steps to improve Morale, Welfare,
and Recreation programs throughout the peninsula. USFK conducted surveys that would
                                                   27
identify areas Service Members viewed as needing improvement and funding prioritization. In
2004, USFK spent $3.4 million to improve its Morale, Welfare, and Recreation facilities.
USFK’s goal is to go “above and beyond” what is the normal military Morale, Welfare, and
Recreation program. (USFK receives $1 million of the $12 million a year from USFK Army
recreation machines [slot machines]. The remaining funds are deposited into the “Army One
Fund.”)

Of particular note in USFK is the Command’s correlation of human trafficking and prostitution.
In the DoD IG entrance briefing, the USFK Commanding General stated that he viewed
prostitution and human trafficking as one in the same. USFK calls the anti-TIP campaign
“Prostitution and Human Trafficking.” Sensing session results show that USFK Service
Members equate all prostitution as human trafficking. When questioned further, participants in
USFK sensing sessions did not identify any U.S. personnel involved in actual trafficking. (In the
DoD TIP evaluation’s Web-based survey (Appendix E), question number seven asks, “Are you
aware of U.S. personnel involvement in activities that could be defined as TIP?” Out of more
than 10,000 total respondents, 732 answered the question “yes.” These positive responses likely
reflect the view that prostitution equates to TIP.)

While visiting USFK, the IG team reviewed command documentation and conducted sensing
sessions with 240 personnel selected by unit leaders from U.S. bases in Korea. Each sensing
session included a brief introduction detailing the purpose and methodology of the evaluation.
The table below provides partial results from the sensing sessions in USFK. (See Appendix I for
complete sensing session results.)

                            Table 3. Sensing Session Highlights
                            DoD PERSONNEL ASSIGNED TO USFK




                                     Individual Responses              Yes   No
            Did you receive information regarding U.S. policy on TIP
            from a government source?                                  239   1
            Do you think you would recognize the signs or indicators
            of TIP?                                                    236   4

            Are you familiar with procedures for reporting suspected
            traffickers?                                               240   0




Conclusions
The USFK anti-TIP program continues to set the standard for DoD efforts to combat TIP. The
USFK leadership works, on a continuous basis, with assigned personnel and local businesses to
combat human trafficking. TIP awareness is widespread and is a recurring theme at Newcomer’s
Briefings, professional development sessions, and senior leadership meetings. Of the USFK
sensing session participants, all but one said they had received training on TIP from the U.S.

                                                 28
Government. All of them thought the information was easy to understand and they knew the
procedures for reporting suspected traffickers.

USFK has met the Secretary of Defense (SecDef) objective requiring “. . . commanders at all
levels to ensure their units are trained to understand and recognize indicators of this serious
crime.” 20

The Commander, USFK, noted that he had an excellent relationship with the Korean civil
authorities and that he had the necessary authority to take appropriate actions “outside the gate.”

Recommendations for USFK

Establish a forum to meet periodically with Non-Governmental Organizations (NGOs) to review
TIP-related issues and prevention initiatives.



Management Comments and OIG Response

United States Forces Korea (USFK) “concurred” with the report and the recommendation for
USFK. The complete USFK response is at Appendix L.

                                        Return to Table of Contents




20
     Secretary of Defense memorandum, September 14, 2004, “ Combating Trafficking in Persons Memorandum,”
     Appendix D.
                                                      29
Page intentionally left blank




             30
             Chapter 4—U.S. EUROPEAN COMMAND (EUCOM)

Objectives: Determine whether U.S. European Command (EUCOM) TIP training effectively
promotes awareness of applicable laws and restrictions regarding TIP and if the training fosters
behavioral changes among EUCOM civilian employees/contractor personnel/Service Members.

Determine if current laws and international agreements are sufficient to give EUCOM
commanders the requisite authority “outside the gate.”


EUCOM maintains ready forces for conducting the full range of
operations unilaterally or in concert with coalition partners; enhancing
transatlantic security through support of NATO; promoting regional
stability; countering terrorism; and advancing U.S. interests in the area
of responsibility (AOR). 21




EUCOM Actions Taken/Proposed
      •   Began a program to combat trafficking in persons (CTIP) across the EUCOM AOR.
          Efforts are underway to develop policy and programs necessary to inform EUCOM
          personnel about this program.

      •   Designated a lieutenant colonel (O-5) as the TIP point of contact/action officer.

      •   Continues to involve top EUCOM officials in developing TIP program requirements.



Results
TIP Awareness Program
Several factors played a role in the development of the EUCOM TIP awareness program. Those
factors were:

      •   Reliance on the Military Services for TIP guidance/instructions for training military
          personnel on TIP issues.

      •   Confusion over SecDef’s intent and the type of TIP program appropriate at the EUCOM
          level.

      •   The geographic dispersion of EUCOM personnel into different countries.



21
     www.eucom.mil/english/index.asp
                                                  31
   •   Senior leader involvement.

   •   Commander’s reactions.

TIP Training Responsibility
EUCOM officials stated that, in accordance with title 10, subtitle B, section 3013; subtitle C,
section 5013; and subtitle D, section 8013 of the United States Code, the Service Secretaries
organize and execute the TIP training program. EUCOM leadership noted that, since their AOR
is so large geographically and encompasses so many different countries (see Figure 10 below),
the logical place to train military personnel is with the Military Services before they are assigned
to EUCOM.

Secretary of Defense TIP Policy Intent
Command officials report that the only official guidance they received concerning TIP was the
Deputy Secretary of Defense (DepSecDef) memorandum dated January 30, 2004, and the
SecDef’s memorandum dated September 16, 2004. Officials at EUCOM headquarters stated that
these memoranda do not give adequate guidance to develop an effective program to combat TIP.
They believe that OSD and the Military Services failed to issue adequate implementation
guidance. Command officials comment that the “zero tolerance” policy could be interpreted to
convey several different meanings, that is, do you place all adult entertainment “off limits” or
only places that front prostitution and possible trafficking victims? (See “Commander’s
Reactions” below.)

Dispersion of EUCOM Personnel
The EUCOM AOR encompasses ninety-two countries. Each of those countries has their own
laws and unique set of circumstances/problems concerning TIP. Hence, the local unit TIP
awareness program needs to reflect
country-specific differences. For
example, TIP awareness programs for
countries where prostitution is legal will
differ from countries where prostitution
is illegal.

The number of personnel assigned to
EUCOM units vary—some units have
just a few individuals. In Kosovo, the                                               EUCOM
U.S. military presence is small and
declining. Military personnel, restricted
to remote bases, are not
allowed to mingle with the local
Kosovo population. This base
restriction effectively removes chances          Figure 10. EUCOM Area of Responsibility
of military personnel providing a demand
for trafficked sex workers. However, DoD contractors are not restricted to the base.
Consequently, a TIP awareness program should target contractors to ensure they comply with the
zero tolerance policy.


                                                 32
The U.S. Navy port calls across the EUCOM area of responsibility (AOR) also presents a
challenge with TIP-related issues.

The growing presence of DoD contractors throughout the EUCOM AOR creates further
challenges. Controlling off-the-job movement and behavior of DoD-contractors is more difficult
than controlling off-duty Service Members.

Senior Leader Involvement
The draft EUCOM TIP policy letter for the Commander EUCOM was in the development and
staffing process for over a year. The EUCOM TIP policy letter was signed in April 2006 and
issued throughout the command. EUCOM policy incorporates the October 2005 change to the
UCMJ prohibiting Service Members from soliciting or patronizing a prostitute, even where
prostitution is legal.

Commanders’ Reactions
During this evaluation, we received reports that some commanders responded to TIP concerns by
barring military personnel from all establishments that offer adult “striptease” entertainment.
Barring all forms of “adult” entertainment is not required by current TIP policy; however,
Service Component Commanders should bar personnel from such establishments if they have a
reasonable suspicion that the establishment is a front for prostitution or that the employees are
likely trafficking victims. Military personnel patronizing adult entertainment establishments are
encouraged to be aware of the signs of trafficking and report suspicions to appropriate
authorities.

The DoD IG team conducted sensing sessions with 115 EUCOM personnel selected by unit
leaders, including individuals stationed in Bosnia/Kosovo. Each sensing session included a brief
introduction detailing the purpose and methodology of the evaluation. The table below provides
partial results from these sensing sessions. (See Appendix I for complete results.)

                           Table 4. Sensing Session Highlights
                                 DoD PERSONNEL ASSIGNED
                                        TO EUCOM


                                     Individual Responses         Yes      No
              Did you receive information regarding U.S. policy
              on TIP from a government source?                     90      25
              Do you think you would recognize the signs or
              indicators of TIP?                                   75      40

              Are you familiar with procedures for reporting
              suspected traffickers?                               76      39




                                                 33
No Reported EUCOM Members Involved In Trafficking
During this evaluation, no indications surfaced of EUCOM personnel (military, civilian
employees, or contractors) involved with actual TIP. However, during a sensing session, a
service member reported that he believed that trafficked individuals are working on U.S.
installations in Kuwait, through contracts with Kuwaiti companies. The Kuwaiti contractors
reportedly use trafficked laborers. Kuwaiti law is supposedly lenient or nonexistent in
prohibiting human trafficking for labor purposes. We discuss actions taken by the U. S. Central
Command (CENTCOM) to address the issue of trafficked labor in Iraq and Kuwait in Chapter 7
of this report.

Corruption of Non-Governmental Organizations in Bosnia
We interviewed several NGO personnel in Bosnia. The interviewees alleged that, because of
lawlessness and lack of any NGO oversight, many of NGO personnel are corrupt. The
corruption process results in NGO personnel patronizing prostitutes and laundering money. We
did not verify the accuracy of these allegations as they were outside the scope of this evaluation.
Additionally, DoD has no authority over NGOs.

Conclusions
Continued senior leader involvement is necessary to assist in the development and maintenance
of an effective TIP awareness program in EUCOM.

Although EUCOM has made progress in this area, the Command should develop a program
tailored to local conditions across the EUCOM AOR. The EUCOM POC for TIP issues and
training development is working to complete the Command’s program to combat TIP.

The EUCOM leadership will benefit from additional guidance from DoD in the form of a
Directive and/or implementing instruction.

While the EUCOM leadership believes they have the authority to take appropriate TIP-related
action “outside the gate,” they are unsure how to proceed with their “off limits” authority.

Recommendations for EUCOM

        1. Develop TIP policy and program guidance unique to EUCOM. Update that guidance
after publication of the DoD directive and/or implementing instructions.

         2. Develop a video-based TIP awareness presentation and public service and public
awareness announcements that depict realistic scenarios involving sexual exploitation and labor
trafficking.

        3. Conduct command evaluations of the effectiveness of TIP awareness training. (This
evaluation should periodically involve the IG, per the DepSecDef policy letter on this subject
[Appendix D].)

       4. Include TIP-related considerations when developing plans for establishing new
overseas bases, for example, anti-TIP language in DoD contracts and pre-deployment TIP
                                                34
training requirements for Service Members, DoD civilian employees, and contractors.

        5. Verify that Service Component Commanders place off-limits those establishments
identified as a front for prostitution.

Management Comments and OIG Response

The U.S. European Command (EUCOM) “concurred with comment” regarding specific
recommendations in the report related to Geographic COCOMs, COCOMs, or EUCOM. They
stressed that training individual Service Members was a Service Responsibility vice a COCOM
responsibility, which we noted in Chapter 4 in the paragraph on “TIP Training Responsibility.”
The complete EUCOM response is at Appendix L.

OIG Response: Based on EUCOM comments, we made changes to Chapter 4 in the paragraphs
on “Senior Leader Involvement,” Commander’s Reactions,” and “NGO Corruption in Bosnia.”
We also reworded the EUCOM recommendation 5 (above) to reflect the Service Component
responsibility to put establishments off limits if they are a front for prostitution.


                                  Return to Table of Contents




                                              35
Page intentionally left blank




             36
     Chapter 5—U.S. CENTRAL, NORTHERN, SOUTHERN AND
              SPECIAL OPERATIONS COMMANDS

Objective: Determine whether the Combatant Commands TIP training effectively promotes
awareness of applicable laws and restrictions regarding TIP and if the training fosters behavioral
changes among civilian employees/contractor personnel/Service Members.


In contrast to EUCOM and PACOM, the Headquarters for United States Central, Northern,
Southern, and Special Operations Commands are in the continental United States. With the
exception of U.S. Northern Command, the Combatant Command’s assigned forces are outside
the continental United States. Because of that, we directed our visits to only the headquarters for
these combatant commands and, with the exception of a Northern Command component
(detailed in Chapter 6), did not conduct sensing sessions with their component forces.


                                   U.S. CENTRAL COMMAND
                                          (CENTCOM)
                           U.S. Central Command (CENTCOM) is one of the five geographically
                           defined Combatant Commands within DoD. CENTCOM planns and
                           conducts military activity in an AOR consisting of 27 countries in
                           Northeast Africa, Southwest and Central Asia, and the island nation of the
                           Seychelles. CENTCOM headquarters is located at MacDill Air Force
                           Base in Tampa, Florida. 22



CENTCOM Actions Taken
      •   Designated a TIP representative (0-4) within the CENTCOM Manpower and Personnel
          (J-1) directorate.

      •   Issued memorandum, “Combating Trafficking in Persons,” dated
          July 25, 2005. This memorandum references and reinforces the
          SecDef TIP memorandum and states, “Commanders at all levels
          must be vigilant to this criminal activity, stressing proactive
          identification and appropriate action against any businesses or
          establishments involved in sexual exploitation. Additionally,
          commanders must be alert to and address any instances of
          questionable conditions of employment by DoD contractors or
          their subcontractors in the CENTCOM area of responsibility.”
          Additionally, in accordance with the Under Secretary of Defense
          TIP memorandum (Appendix D), the CENTCOM memorandum                        Figure 11


22
     www.centcom.mil/sites/uscentcom1/default.aspx
                                                     37
           states that TIP awareness training is mandatory for all DoD military and civilian
           personnel.

       •   Drafted a TIP policy memorandum that assigns responsibilities and establishes
           procedures for the implementation of TIP awareness training. CENTCOM officials are
           awaiting the DoD directive and/or implementing instruction before issuing the policy
           memorandum because they want to avoid conflicting guidance or having to reissue the
           policy.

       •   Briefed TIP at the CENTCOM J-1 Conference in Qatar on April 20, 2006.

       •   Coordinated with the TIP POC at DoD to ensure that the CENTCOM TIP policy is
           complies with the draft DoD TIP directive and/or implementing instruction.




                         UNITED STATES NORTHERN COMMAND
                                    (NORTHCOM)
                           U.S. Northern Command (NORTHCOM) is one of the five geographically
                           defined Ccombatant Commands within the DoD. DoD established
                           NORTHCOM on October 1, 2002, to provide command and control of
                           DoD homeland defense efforts and coordinate military assistance to civil
                           authorities. The NORTHCOM AOR encompasses air, land, and sea
                           approaches to the continental United States, Alaska, Canada, Mexico and
                           the surrounding water out to approximately 500 nautical miles. It also
                           includes the Gulf of Mexico, Puerto Rico and the U.S. Virgin Islands.
                           NORTHCOM headquarters is located at Peterson Air Force Base,
                           Colorado Springs, Colorado. 23

NORTHCOM Actions Taken
NORTHCOM has no requirement to conduct TIP training because
only overseas Combatant Commands and personnel scheduled to
deploy overseas currently have the TIP awareness training
requirement. 24 However, NORTHCOM officials are aware of TIP
concerns and have:

       •   Designated a TIP representative (O-4) within the
           NORTHCOM Joint Training and Exercises (J7) directorate.

                                                                                         Figure 12. NORTHCOM Area of
                                                                                                  Responsibility
23
     www.northcom.mil/Home.htm
24
     The draft of the DoD Directive “Combating Trafficking in Persons (CTIP)” proposes
     an annual TIP training requirement for all service members and DoD civilians.

                                                        38
      •   Coordinated with the TIP POC at DoD to ensure NORTHCOM TIP policy complies with
          the draft DoD TIP directive and/or implementing instruction.

      •   Published a Combatant Command (COCOM) TIP policy memorandum (May 8, 2006)
          requiring that assigned personnel complete TIP awareness training by August 15, 2006
          and annually, thereafter. (80 percent completed training as of August 15, 2006.)

      •   Developed command briefings on TIP.

      •   Posted TIP awareness messages on their electronic message boards to heighten command
          awareness.



                                  U.S. SOUTHERN COMMAND
                                             (SOUTHCOM)
                  U.S. Southern Command (SOUTHCOM) is one of the five geographically defined
                  Combatant Commands within DoD. The SOUTHCOM AOR encompasses 32
                  countries (19 in Central and South America and 13 in the Caribbean).
                  SOUTHCOM headquarters is located in Miami, Florida. 25



SOUTHCOM Actions Taken/Proposed
      •   Designated a TIP representative (GS-13) within the SOUTHCOM Strategy, Policy and
          Plans (J-5) directorate’s Human Rights Division.

      •   Incorporated TIP into the Human Rights computer-based
          training required annually for all SOUTHCOM personnel
          (military, DoD civilian, and contractor).

      •   Held a Joint Interagency Coordination Group seminar in
          October 2005 in which TIP was the seminar topic. All of the
          SOUTHCOM directors were invited, along with more than
          50 representatives of U.S. Government agencies.

      •   Plan to incorporate TIP guidance into the next revision of
          SOUTHCOM Regulation 1-20 (date to be determined).             Figure 13. SOUTHCOM Area
          (At the time of this evaluation, SOUTHCOM had not issued            of Responsibility
          TIP policy.)




25
     www.globalsecurity.org/military/agency/dod/southcom.htm
                                                      39
                       UNITED STATES SPECIAL OPERATIONS COMMAND
                                        (SOCOM)

                   U.S. Special Operations Command (SOCOM) leads, plans, synchronizes, and,
                   as directed, executes global operations against terrorist networks. SOCOM also
                   trains, organizes, equips, and deploys combat ready special operations forces to
                   combatant commands. SOCOM headquarters is located at MacDill Air Force
                   Base. 26



USSOCOM Actions Taken
      •   Designated a TIP representative (O-6) within the office of the Headquarters, SOCOM
          Commander.

      •   Drafted a TIP policy letter stating that all SOCOM personnel will receive annual TIP
          training. SOCOM officials are currently preparing to commence the required training.


Conclusions
While CENTCOM, NORTHCOM, SOUTHCOM, and SOCOM have not issued a TIP policy, all
of them are in the process of doing so.

They will benefit from the issuance of an anticipated DoD directive/implementing instruction.

Recommendations for CENTCOM/NORTHCOM/SOUTHCOM/SOCOM
    1. Develop TIP policy and program guidance unique to each Combatant Command
(COCOM). Update after publication of DoD directive and/or implementing instruction.

      2. Implement mandatory TIP awareness training for all DoD military, civilian, and
contract personnel.

      3. Supplement DoD TIP training with training that includes unique cultural and legal
considerations for the COCOM AOR.

       4. Incorporate provisions in DoD contracts that prohibits any contractor employee
activities that support or promote trafficking in persons.

     5. Impose suitable penalties on contractors who fail to monitor the conduct of their
employees.

      6. Conduct command evaluations of the TIP program. (These evaluations should
periodically involve the COCOM IG, per the DepSecDef policy letter on this subject [Appendix
D].)
26
     www.socom.mil/Docs/Command_Mission-060214.pdf
                                                 40
Management Comments and OIG Response

The U.S. Central Command (CENTCOM) “concurred with no critical comments.” They
addressed actions taken or planned to implement specific recommendations in the report related
to Geographic COCOMs, COCOMs, or CENTCOM. The complete CENTCOM response is at
Appendix L.

The U.S. Northern Command (NORTHCOM) “concurred” with the report and specific
recommendations in the report related to Geographic COCOMs, COCOMs, or NORTHCOM.
Their complete response is at Appendix L.

The U.S. Southern Command (SOUTHCOM)“concurred with comment” regarding specific
recommendations in the report related to Geographic COCOMs, COCOMs, or SOUTHCOM.
They recommended rephrasing recommendation 1 (above)—“Develop TIP policy and program
guidance unique to each COCOM. Update after publication of the DoD directive and/or
implementing instructions”—to read “Develop TIP policy and program guidance unique to each
COCOM and Military Service after publication of the DoD directive and/or implementing
instructions.” The complete SOUTHCOM response is at Appendix L.

OIG Response: Current policy letters from the Secretary of Defense, the Deputy Secretary of
Defense, and USD(P&R) (Appendix D) are sufficient to develop basic COCOM TIP policy and
program guidance.

The U.S. Special Operations Command (SOCOM) “concurred” with the report and specific
recommendations in the report related to COCOMs or SOCOM. The complete SOCOM
response is at Appendix L.


                                  Return to Table of Contents




                                              41
Page intentionally left blank




             42
          Chapter 6—FORT BLISS, TEXAS/JOINT TASK FORCE
                              NORTH
Objective: Determine whether Fort Bliss and Joint Task Force-North (JTF-N) TIP training
effectively promotes awareness of applicable laws and restrictions regarding TIP and if training
fosters behavioral changes among civilian employees/contractor personnel/Service Members.

Fort Bliss, as a Mobilization Station (MS) and Power Projection Platform (PPP), trains, sustains,
mobilizes, and deploys members of the joint team to conduct global, full spectrum operations in
support of the national military strategy, while providing for the well-being of the regional
military community. 27

We visited Fort Bliss primarily because it is a MS/PPP. As a MS/PPP,
Fort Bliss must process, organize, equip, train, employ, and move
reserve component Service Members onward for deployment.

While at Fort Bliss, we visited the 76th Military Police Battalion to determine the degree of TIP
awareness in a military law enforcement organization.

We also visited JTF-N. JTF-N coordinates military-unique support to law
enforcement agencies and supports interagency synchronization in order to
deter and prevent transnational threats to the homeland. Because of this
operational mission, we felt that a discussion with JTF-N officials about TIP
would prove useful. 28

Neither the 76th Military Police Battalion, nor JTF-N, are subject to any
current mandate for providing TIP awareness training since they are not deployed or deploying.

Actions Taken/Proposed
      •   The MS/PPP has incorporated TIP awareness training into the curriculum for deploying
          units/Service Members.

      •   The 76th Military Police Battalion has taken the initiative to issue a TIP policy
          memorandum. The memorandum states that soldiers must receive annual TIP awareness
          training and that TIP will be presented at new soldier in-briefings. Additionally, it states
          that soldiers must be trained no later than June 30, 2006.

      •   JTF-N officials stated that personnel received TIP awareness training, and they plan to
          issue a TIP policy letter upon further guidance from NORTHCOM and Fort Bliss.




27
     https://www.bliss.army.mil/NewWeb/MyWebs/Ft-Bliss-Mission.htm
28
     www.answers.com/topic/joint-task-force-north
                                                    43
   •   JTF-N has also initiated an action plan to appoint a JTF-N TIP coordinator and to include
       TIP in the IG inspection plan.

   •   The Fort Bliss Directorate of Plans, Training, Mobilization, and Security (DPTMS) / (G-
       3) is developing an installation TIP policy. The POC is a lieutenant colonel (O-5).

Results
Despite the installation’s close
proximity to the U.S./Mexico border,
base leadership informed us that there
have been no reported incidents of
TIP-related activity involving Fort
Bliss or personnel stationed/working
there.

Deploying Personnel
We conducted sensing sessions with
49 soldiers from the California and
Oklahoma Army National Guard units
that were at Fort Bliss in preparation
for deployment. (The soldiers were
selected by their unit.) As illustrated
in Table 5, all 49 deploying Army
National Guard Service Members
received TIP awareness training as part of their         Figure 14. Mobilization Stations (MS)/Power
mobilization requirements. The sensing                           Projection Platforms (PPP)
session results from these Guard units indicate
that “understanding” resulting from this training is at about the 66-percent level. The MS and
unit chain of command should consider reinforcing key learning objectives from this TIP
awareness training. (See Appendix I for complete sensing session results.)

                               Table 5. Sensing Session Highlights


                                                Fort Bliss, Texas
                                      Deploying Army National Guard Soldiers


                                        Individual Responses            Yes      No
                 Did you receive information regarding U.S. policy
                 on TIP from a government source?                       49        0
                 Do you think you would recognize the signs or
                 indicators of TIP?                                     31        18

                 Are you familiar with procedures for reporting
                 suspected traffickers?                                 37        12


                                                   44
Non-Deploying Personnel
While no requirement exists for non-deploying DoD personnel to receive TIP awareness
training, we conducted sensing sessions to gauge awareness of personnel from JTF-N and the
76th Military Police Battalion. Neither organization was scheduled to deploy. These sessions
comprised 35 military, civilian, and contractor personnel that unit leaders selected. As shown
below, all 35 of the non-deploying personnel that we spoke with had received TIP awareness
training. (See Appendix I for complete sensing session results.)


                              Table 6. Sensing Session Highlights
                                      Fort Bliss, Texas
                                 Non-Deploying DoD Personnel




                                     Individual Responses              Yes    No
            Did you receive information regarding U.S. policy on TIP
            from a government source?                                  35      0
            Do you think you would recognize the signs or indicators
            of TIP?                                                    34      1

            Are you familiar with procedures for reporting suspected
            traffickers?                                               25     10




Conclusions
Service Members processing through the Fort Bliss MS/PPP receive TIP awareness training as
part of their mobilization requirements.

While there have been no reported TIP-related incidents in the Fort Bliss area, an installation TIP
policy is currently being drafted.

Although no current requirement exists for non-deploying Service Members to receive TIP
awareness training, both the 76th Military Police Battalion and JTF-N trained their personnel on
TIP and are working on TIP policy memoranda. Both organizations are to be commended for
their efforts.

Recommendations for Installations
      1. Finalize and issue installation-level TIP policy memoranda in accordance with OSD
policy memoranda. Update after DoD publishes the directive and/or implementing instruction.
(OPR: Military Services)

      2. Conduct command evaluations of the effectiveness of TIP awareness training. (This
evaluation should periodically involve the IG, per the DepSecDef policy letter on this subject
[Appendix D].) (OPR: Military Services)
                                                 45
Management Comments and OIG Response

The Army Assistant Secretary for Manpower and Reserve Affairs “concurred with
comment” regarding the specific recommendations related to the Army or Military Services.
The Army recommended that the metric referenced in Recommendation 6 (above) include a
measure of the effectiveness of the TIP program. They also recommended that the DoD policy
directive and/or implementing instructions include standardized requirements and guidelines for
commanders to use when developing memoranda of understanding. The complete Army
response is at Appendix K.

OIG Response: We passed the Army recommendations on to the Director, Law Enforcement
Policy and Support in USD(P&R) for possible inclusion in the new DoD TIP directive that is
currently out for formal staff comment.

The Navy Assistant Secretary for Manpower and Reserve Affairs and The Deputy Naval
Inspector General for Marine Corps Matters/Inspector General of the Marine Corps
“concurred” and assigned an OPR to the specific recommendations related to the Military
Services. The complete Navy and Marine Corps response is at Appendix K.

The Air Force did not respond to our request for Management Comments. We will ask them to
respond to the final report within 90 days of publication.

                                  Return to Table of Contents




                                              46
                                     Chapter 7—Labor Trafficking

Objective: To determine whether appropriate actions were taken on alleged labor trafficking
issues reported against DoD contractors in Iraq and Kuwait.

On July 1, 2004, The Washington Post published an article alleging a
DoD contractor, Kellogg, Brown, and Root (KBR), engaged in “debt
bondage” practices involving third-country nationals working in Iraq.
The majority of the third-country nationals were migrant workers from
Nepal, India, Pakistan, Bangladesh, Sri Lanka, and the Philippines.
The article specifically cited a case involving Indian nationals. The
Indian nationals worked in several odd jobs, including food service
support.

                                                KBR provides food service support in Iraq and Kuwait
                                                under a U.S. Army Logistic Civil Augmentation Program
                                                (LOGCAP) contract. 29 The Washington Post article
                                                states: [KBR] “skimped on expenses by not providing
                                                workers with adequate drinking water, food, health care
                                                or security for part of their time in the war zone.”
                                                Officials from the Office to Monitor Trafficking in
                                                Persons at the Department of State (DoS) asked DoD to
     Figure 15. In one of Saddam Hussein's      investigate these allegations. The DoD IG worked with
     former palaces in Baghdad, KBR             an Attorney/Advisor to U.S. Army LOGCAP, and U.S.
     prepares and serves meals to support       Army Field Support Command, Rock Island, Illinois to
     the Coalition Provisional Authority
     (CPA) and military personnel. On           review the allegation. The review determined that the
     average, KBR serves close to 250,000       Coalition Forces Land Component Command (CFLCC)
     meals per month at this dining facility.   was already taking action on the issue of labor
                                                trafficking, within their legal authority to do so.

Actions Taken—Labor Trafficking
On August 30, 2004, the Deputy Commander General of CFLCC responded to the reported
concerns and sent out a memorandum to contractors listing corrective measures. (See
Appendix F.) The memorandum requires that contractors:

        •    Incorporate Private Sector Labor Laws of the State of Kuwait into DoD contracts and
             extend applicability to cover employees while in Iraq.

        •    Incorporate use of employment contracts with each employee.


29
      Under the LOGCAP contract, KBR provides meals in the military dining facilities throughout the CENTCOM
      AOR. For example, from January through June 2006, KBR served 88 million meals across the CENTCOM
      AOR, excluding Kuwait (handled by a different contractor). Source: KBR Monthly Report to LOGCAP “Total
      Meals Prepared.”
                                                           47
   •   Maintain a list of driver employees that included:

       —    Name
       —    Nationality
       —    Passport number
       —    Civilian identification number
       —    Name of sponsor.

   •   Provide this list to the respective embassy of each nationality employed.

   •   Issue company identification badges to employees with the information noted above,
       along with contract numbers and telephone numbers for the contractor and contracting
       officer.

   •   Provide life insurance for workers in Iraq in the amount of 10,000 Kuwaiti Dinars
       minimum, payable to an individual designated by employee.

   •   Pay a minimum monthly wage in the amount of 140 Kuwaiti Dinars and make electronic
       funds transfer of wages available to each employee.

   •   Pay an incentive premium of 5 percent of monthly wage for any month that included a
       mission into Iraq.

Additional Allegations and Actions Taken. In October 2005, a series of Chicago Tribune
articles were published alleging instances of deception, involuntary servitude, debt bondage, and
other improper labor practices by KBR and their subcontractors. The allegations stemmed from
the kidnap and murder of a dozen Nepalese men by insurgents. Other allegations were:

   •   Illegal confiscation of third-country nationals’ passports.

   •   Deceptive hiring practices.

   •   Excessive recruitment fees.

   •   Substandard living conditions.

On January 18, 2006, the Office to Monitor and Combat Trafficking in Persons at the U.S. DoS
requested OSD conduct an inquiry into these allegations. On April 18, 2006, the DoD IG
completed that inquiry on alleged TIP practices by DoD contractors in Iraq, specifically
regarding the Nepalese incident. The primary finding concluded that the U.S. Government had
no jurisdiction over the persons, offenses, or circumstances that resulted in the Nepalese deaths.
The DoD IG recommended to DoD the following with regard to the Nepalese incident:

   •   Continue prosecuting military members who become involved in TIP or TIP-related
       activities, in accordance with the UCMJ.

                                                48
      •   Ensure that all new contracts incorporate the language of the anti-TIP Defense Federal
          Acquisition Regulation Supplement (DFARS) interim rule (DFARS Case D2004-
          D017). 30 Evaluate rewriting existing contracts to incorporate the language of the anti-
          TIP DFARS interim rule.

      •   Continue involvement of Military Department and Combatant Command Inspectors
          General in DoD efforts to combat TIP, within the limits of their authority to do so.

In February 2006, the Inspector General for the Multi-National Force-Iraq (MNF-I) completed
an investigative inquiry into labor practices of contractors employed by MNF-I. As a result of
this inquiry, officials in Iraq reported to the DoD IG that the Army Field Support Command at
Rock Island, Illinois was modifying the LOGCAP basic contract with KBR to incorporate the
pending DFAR interim TIP clause in all contracts.

Beginning on May 1, 2006, KBR was also:

      •   Conducting hands-on inspections of each subcontractor employee (throughout Iraq). The
          intent was to ensure each individual had physical possession of his or her passport, as
          U.S. law requires.

      •   Modifying existing contracts with their subcontractors to codify expectations of the USG
          and KBR in regard to human trafficking.

      •   Complying with the requirement for 50 square feet of living space for each subcontractor
          employee.

      •   Conducting formal TIP education and awareness training of KBR employees.

      •   Incorporating TIP awareness training into the curriculum of all new employees deploying
          to Iraq.

On May 15, 2006, the CFLCC Commander and the Principle Assistant Responsible for
Contractors briefed KBR and other contractors on trafficking issues and TIP-related
requirements for DoD contracts. (see Appendix F) The Principle Assistant Responsible for
Contractors provided a copy of the FAR Clause 52.222-50 which stipulates the anti-TIP
provisions that will be included in all DoD contracts for services.

Conclusions
The U.S. military leadership in Iraq and Kuwait are taking appropriate actions, within the limits
of their authority and U.S. law, to control labor trafficking issues with respect to DoD

30
     DoD supported publication of a Federal Acquisition Regulation (FAR) interim rule on combating TIP (April
     19, 2006). DoD also supported publication of the Defense Federal Acquisition Regulation Supplement
     (DFARS) interim rule (DFARS Case 2004-D017, October 26, 2006) that requires a TIP related contract clause in
     all DoD contracts performed outside the United States. Contractors performing DoD contracts outside the United
     States have to comply with U.S. Law, host nation law, and local theater directives on combating TIP. Comments
     on the DFARS interim rule should be submitted on or before December 26, 2006.
                                                         49
contractors.

Labor trafficking could also become an issue for other COCOMS—specifically for EUCOM as
DoD establishes new bases in eastern Europe.

Recommendations—Labor Trafficking
       1. Multi-National Force-Iraq (MNF-I) and Coalition Forces Land Component
Command (CFLCC) conduct a follow-up review to ensure DoD contractor compliance with U.S.
law and command policy regarding trafficking in persons. (OPR: MNF-I; OCR: CFLCC)

        2. Include TIP-related considerations when developing plans for establishing new
overseas bases, for example, anti-TIP language in DoD contracts and pre-deployment TIP
training requirements for Service Members, DoD civilian employees, and contractors. (OPR:
USD[P&R]; OCR: Regional COCOMs, Military Services)

Management Comments and OIG Response

Multi-National Force-Iraq (MNF-I) and Coalition Forces Land Component Command
(CFLCC) “concurred” with report and specific recommendation in the report related to MNF-I
and CFLCC. Their response was included in the CENTCOM response and is at Appendix L.


                                 Return to Table of Contents




                                             50
                     Appendix A – Scope and Methodology

Scope
The DoD IG initiated this Crystal Focus project to address the concerns of Members of
Congress, as expressed in writing and during congressional hearings. Members of Congress
asked “what steps have been taken to address human sex trafficking?” and expressed concerns
about U.S. military personnel and contractor involvement in sex trafficking. (Appendix B.)
Accordingly, we examined TIP policies, programs, and actions taken at OSD, the Joint Staff
(JS), PACOM, EUCOM, NORTHCOM, SOUTHCOM, SOCOM and CENTCOM, and a Power
Projection Platform mobilization station at Fort Bliss, Texas. We also visited Joint Task Force
NORTH (JTF NORTH) while at Ft. Bliss. The specific focus of the evaluation was to:

   a. Determine if DoD directives, implementing instructions, organization, metrics, and
      resources were adequate for DoD components to develop implementing programs
      with actionable objectives.
   b. Determine if TIP training effectively promotes awareness of applicable laws and
      restrictions regarding TIP and if the training fosters behavioral changes among DoD
      civilian employees/contractor personnel/Service Members.
   c. Determine if current laws and international agreements were sufficient to give
      commanders the requisite authority “outside the gate.”

Standards

The evaluation team performed this evaluation in accordance with the President’s Council on
Integrity and Efficiency “Quality Standards for Inspections,” January 2005.

We derived standards specific to this evaluation from:

   •   Title 10, sections 3583, 5947, and 8583 of the United States Code, “Requirement of
       Exemplary Conduct,” November 18, 1997

   •   Public Law 106-386, Division A, 114 Stat. 1464, “Victims of Trafficking and Violence
       Protection Act of 2000” Reauthorization Acts 2003 and 2005

   •   NSPD-22, “Combating Trafficking in Persons,” December 16, 2002
   •   Deputy Secretary of Defense Memorandum, “Combating Trafficking in Persons in the
       Department of Defense,” January 30, 2004
   •   Secretary of Defense Memorandum, “Combating Trafficking in Persons,”
       September 16, 2004
   •   Under Secretary of Defense for Personnel and Readiness Memorandum, “Awareness
       Training for Combating Trafficking in Persons,” November 17, 2004

                                               51
Methodology
A team of four DoD evaluators from the DoD IG, led by an Army lieutenant colonel, conducted
this evaluation. The team was accompanied on some occasions by a GS 15 Division Chief. The
coordinating agent for our activities was the primary IG at each location.

The team used a Web-based survey, sensing sessions, document reviews, and direct observation
to facilitate meaningful dialogue with leadership and action officers across DoD.

Work Performed

   •   Reviewed specific OSD, JS, Military Services, and Combatant Commander polices and
       programs on TIP
   •   Reviewed prior coverage, evaluations, and inspections from the past 5 years associated
       with trafficking in persons
   •   Reviewed current draft reports or studies underway that involved or were related to the
       DoD TIP program and related issues
   •   Conducted interviews with senior OSD and Military Department officials
   •   Conducted interviews with NGOs
   •   Conducted sensing sessions with military units
   •   Conducted a Web-based survey available to all DoD personnel and contractors
   •   Reviewed current DoD policy/guidance and proposed drafts

Site Visits

The team spent approximately 1 day at each installation or activity that began with a PowerPoint
presentation to the senior leadership. Subordinate organizational leadership was also invited, if
appropriate. The major organization (Division, Fleet, Wing, Marine Expeditionary Force) gave a
presentation of its plans, guidance, initiatives, and challenges for the TIP program. Unit visits
consisted of individual and group interviews (sensing sessions). The purpose of those interviews
was to assess the implementation and understanding of the TIP awareness program. Upon
completion of each site visit, the team provided an exit brief to a senior leader or a designated
representative. The exit brief consisted of the number of personnel contacted, documents
reviewed, and general results of the sensing sessions.

We spoke with 848 Service Members (E-1 to O-6), DoD civilians, and DoD contractors during
the on-site sensing sessions. We asked the participants questions to gauge their TIP awareness
and to develop ideas for program improvement.

Organizations Visited

Under Secretary Of Defense for Personnel and Readiness (USD[P&R])
Office of the Joint Chiefs of Staff (J-5)
Assistant Secretary of the Army Manpower & Reserves Affairs (ASA[M&RA])
                                             52
Combatant Commands:
       U.S. Pacific Command (PACOM) and units in:
              Hawaii
              Japan (Okinawa)
              Korea
       U.S. Europe Command (EUCOM) and units in:
              Germany
              Bosnia
              Kosovo
              Italy
       U.S. Southern Command (SOUTHCOM)
       U.S. Northern Command (NORTHCOM)
       U.S. Central Command (CENTCOM)
       U.S. Special Operations Command (SOCOM)
U.S. Army Mobilization Station
       Fort Bliss, Texas

Web-Based Survey

A Web-based survey was posted on the DoD IG Web Site from January through April 2006.
(Appendix G.) All DoD personnel were encouraged to take the survey, which resulted in more
than 10,000 responses. (Appendix H.) We wanted DoD personnel to take the Web-based
survey. However, the general public could have accessed the survey and there were no controls
in place to prevent an individual from taking the survey more than once. Given the magnitude of
the response, these possible issues are unlikely to have substantially altered the results.
Furthermore, the Web-based survey results provided only one set of data for consideration, along
with the results of document review, interviews, observation, and sensing sessions. The Web-
based survey results are a snapshot in time of TIP awareness across DoD and are not intended to
predict future outcomes. However, the results can establish a baseline of TIP awareness in DoD.

Analysis

The sensing session and survey responses were reviewed and summarized for
trends/observations in order to determine individual perceptions and what could be done to
improve DoD efforts to combat TIP. Recommendations resulting from that analysis were
discussed with subject matter experts and appropriate points of contact.

Other Actions

The evaluation team also discussed TIP labor issues with the Multi-National Forces-Iraq (MNF-
I) Inspector General and with Logistics Civil Augmentation Program (LOGCAP)
representatives.




                                              53
Prior Coverage

DoD IG Reports

“Assessment of DoD Efforts to Combat Trafficking In Persons Phase I United States
Forces Korea,” Case Number H03L88433128, July 10, 2003

In this report, the OIG team made the following recommendations for corrective action.

      •   Bolster human trafficking situational awareness in the context of ongoing emphasis on
          “Core Values” and “The NCO [noncommissioned officer] Creed.”
      •   Provide official “tool kit” to Service Members that includes:
              — The unclassified version of the Presidential Directive on Human Trafficking.
              — President Bush’s letter of February 20, 2003, announcing directive, and the
                 requirements for exemplary conduct in Title 10.
              — The Trafficking Victim’s Protection Act of 2000.
      •   Develop and deploy a “human trafficking indicators” guide for sensitizing not                only
          Military Police and Courtesy Patrols, but each Service member.
      •   Emphasize individual moral decision making based on Army Core Values and “The NCO
          Creed” as the ultimate metric for success.
      •   Continue to proactively pursue ongoing efforts to combat human trafficking, involving
          USFK leadership from top down.

“Assessment of DoD Efforts to Combat Trafficking in Persons Phase II Bosnia-
Herzegovina and Kosovo,” Case Number H03L88433128, December 8, 2003

In this report, the OIG team made the following recommendations for corrective action.

      •   Continue to exercise vigilance to ensure military personnel adhere to laws and restrictions
          regarding activities related to human trafficking, such as prostitution. In particular, this
          should include regular reviews of the “Fighter Management Pass Programs” and
          inspections of rest and relaxation locations. 31
      •   Amend General Order #1 to include provisions prohibiting engagement in all facets of
          prostitution and other activities related to human trafficking. These provisions should
          include punitive language to enable their enforcement through Article 92, UCMJ. For
          instance, the following subparagraph might be added to paragraph 3, “Prohibited
          Activities,” of General Order #1: “Engaging in any activities associated with human
          trafficking. Such activities include obtaining the services of a prostitute, purchasing
          individuals for the purpose of indentured servitude or prostitution, or patronizing
          establishments that are suspected of involvement in human trafficking.”



31
     The Fighter Management Pass Programs offer service members stationed in the Balkans an opportunity to travel
     on pass to three alternative locations in Europe for rest and relation.
                                                        54
   •   Implement a training program designed to educate military personnel, contractor
       employees, and law enforcement personnel regarding human trafficking. Such a program
       should provide information on the legal, societal, and moral implications of engaging in
       activities that support human trafficking. In addition, law enforcement personnel should
       receive instruction in the provisions and application of the Military Extraterritorial
       Jurisdiction Act (MEJA), and especially in law enforcement measures necessary to
       support implementation of extraterritorial jurisdiction.
   •   Incorporate standard clauses in all contracts for work to be performed in Bosnia-
       Herzegovina and Kosovo that prohibits contractor employee involvement in activities
       that may support human trafficking and requires contractors to report to U.S. military
       authorities any information regarding involvement of their employees in such activities.
       Contractors should also be contractually bound to take appropriate measures to address
       such misconduct on the part of their employees. Contracting officers should be charged
       to aggressively enforce such provisions.
   •   Implement policies to promote regular communication between U.S. military authorities,
       local judicial and law enforcement authorities, and the Trafficking and Prostitution
       Investigative Unit. Such communication would include the exchange of information
       regarding involvement by members of Stabilization Forces and Kosovo Forces in human-
       trafficking related activities, and would facilitate investigations and prosecutions.

Continuing Coverage

Attorney General’s Annual Reports to Congress on U. S. Government Activities to Combat
Trafficking in Persons Fiscal Years 2004 and 2005.
www.usdoj.gov/whatwedo/whatwedo_ctip.html

DoS annual Trafficking in Persons Reports released in June 2004, 2005, and 2006.
www.state.gov/g/tip/rls/tiprpt/2006/

United Nations report Trafficking in Human Beings: Global Patterns (April 2006)
www.unodc.org/unodc/en/trafficking_human_beings.html




                                              55
Page intentionally left blank




             56
Appendix B – Congressional Letters




                57
58
59
60
61
Page intentionally left blank




             62
Appendix C – National Security Presidential Directive-22




                           63
64
65
2. Paragraph redacted because it was classified.




                              66
Part of paragraph redacted because it was classified.




                                    67
4. Paragraph redacted because it was it was classified.




                                68
69
Page intentionally left blank




             70
Appendix D – DoD & NATO Policy Memorandums




                    71
72
73
74
75
76
NOTE: Appendices to above NATO policy not shown




                      77
Page intentionally left blank




             78
Appendix E – DoD Combating Trafficking in Persons Initiatives




                              79
80
Appendix F – Multi-National Force—Iraq (MNF-I) and Coalition
 Forces Land Component Command (CFLCC) TIP Initiatives




                             81
82
83
84
85
Page intentionally left blank




             86
Appendix G – Web-Based Survey Questionnaires




                     87
88
89
90
91
Page intentionally left blank




             92
  Appendix H – Web-Based Survey Results—10,331 Participants

Evaluation of DoD Efforts to Combat TIP

Project No. D2006-DIPOE1-0052.00                                            May 01, 2006 Web-Based Survey



Q1. What is your status within the Department of Defense?




DoD Civilian 1,247                                           Other                    USG Civilian
                                                                       DoD Civilian
USG* Civilian   27                                           3.25%       12.07%         0.26%
US Contractor 310                                                                      US Contractor
US Military 8,411                                                                         3.00%
Other          336



                                               US Military
                                                81.42%
* Government civilian,
  other than DoD



Q2. If military, check service. (Subset of Q1—total 8411.)



Army        4,895
Navy          431
                                                             Marines
Marines       100
Air Force   2,975                                            1.19%        Navy
                                         Coast Guard
Coast Guard    10                                                         5.12%
                                           0.12%                                                       Air Force
                                                                                                       35.37%




                                       Army
                                      58.20%




                                                   93
Q3. What is your pay grade? (Subsets of Q1.)




                                                                    O-4 to O-6   Flag/General Officer
                                                                     11.28%             0.19%
                                                                                                                       E-1 to E-4
E-1 to E-4           2,418                      O-1 to O-3                                                              28.04%
                                                 10.82%
E-5 to E-9           4,058                W-1 to W-5
                                            2.61%
W*-1 to W-5            225
O-1 to O-3             933
O-4 to O-6             973
Flag/General Officer    16
                                                                                 E-5 to E-9
                                                                                  47.06%
* Warrant Officer




                                                             GS-14 to GS-15                       GS-1 to GS-6
GS-1 to GS-6                  92                                  11%                                 8%
                                                                                                                          GS-7 to GS-10
GS-7 to GS-10                197                                                                                              16%
GS-11 to GS-13               796
GS-14 to GS-15               133



                                                         GS-11 to GS-13
                                                             65%




                                                                          SES
                                                                          11%
                                                                                                                          WG-1 to WG-8
                                                                                                                             31%
WG*-1 to WG-8                 14
WG-9 to WG-11                  9
WG-12 to WG-15                17
SES                            5       WG-12 to WG-15
                                            38%

* Wage Grade                                                                                                     WG-9 to WG-11
                                                                                                                     20%
+ Senior Executive Service




                                                  94
Q4. What is your gender? (Subset of Q1.)



Female         2250
Male           8031                                                              Female
                                                                                  22%




                                                       Male
                                                       78%




Q5. Have you received information on the US Government policy regarding Trafficking in
Persons?



                                                                 I don't know
                                                        No            4%
                                                       16%
Yes             8215
No              1675
I don't know     404


                                                                                 Yes
                                                                                 80%




Q6. If yes, what was the source of your information?
In processing Brief                                    Arrival Brief
Base Brief                                             Bill Boards
Pre-deployment Brief                                   New Horizons Brief
Armed Forces Network Radio Adds                        Computer Based Training
Chain of Command                                       Policy Letters
Class on Human Trafficking                             Pamphlets
Commanders Call                                        Co-workers
Navy Knowledge on Line                                 E-mail
DoD IG Web-based Survey                                Equal Opportunity Class
General Military Training                              Internet

                                               95
Q7. Was the information easy to understand? ? (Subset of Q5.)


Yes             8,047                                I don't know
No                261                       No           10%
                                            3%
I don't know      982




                                                                     Yes
                                                                     87%




Q8. Can you recognize signs or indicators of TIP?




                                                      I don't know
                                                          14%
Yes             7,750                     No
No                878                     9%
I don't know    1,449



                                                                           Yes
                                                                           77%




                                               96
Q9. Were you aware of TIP prior to this assignment?


                                                     No                                      Don't know
                                                    42%                                         5%


Yes            7,750
No             4,284
I don't know     495


                                                                                       Yes
                                                                                       53%




Q10. What was the source of your information?

In processing Brief                                   Arrival Brief
Base Brief                                            Bill Boards
Pre-deployment Brief                                  New Horizons Brief
Armed Forces Network Radio Adds                       Computer Based Training
Chain of Command                                      Policy Letters
Class on Human Trafficking                            Pamphlets
Commanders Call                                       Co-workers
Navy Knowledge on Line                                E-mail
DoD IG Web-based Survey                               Equal Opportunity Class
General Military Training                             Internet

Q11. Are you aware of US personnel involvement in activities that could be defined as TIP?



                                                   Don't know             Yes
                                                     13%                  7%


Yes              732*
No             7,956
Don't know     1,269


* Likely the result of equating all
                                                                         No
  prostitution as TIP. The team did not
                                                                        80%
  identify any involvement of U.S.
  personnel in actual trafficking.

                                              97
Q12. Are you aware of any possible condition of involuntary servitude, debt bondage, or
coercion occurring through US contracted labor?

                                                                   Don't know
                                                                     13%          Yes
                                                                                  7%



Yes         732
No        8,756
Don't know 689




                                                                    No
                                                                   86%



Q13. Are you familiar with the procedures for reporting suspected traffickers?

                                                                                Don't know
                                                                                  13%
                                                                                               Yes
                                                                                               7%
Yes                 732
No                8,756
Don't know          689




                                                      No
                                                     86%



Q14. Is prostitution illegal in the region you are assigned to?



Yes               7,153                               Don't know
No                1,713                                 13%
Don't know        1,358                         No
                                               17%




                                                                                             Yes
                                                                                             70%




                                                98
Q15. Have you heard of any incident where U.S. personnel (civilian or military) had been
approached by a prostitute/pimp soliciting for sex?


                                                                Don't know
                                                                  13%                   Yes
Yes             2,817                                                                   28%
No              6,948
Don't know        458



                                                         No
                                                        68%




Q16. If yes, was it reported? (Subset of Q15.)

                                                                                Don't know
                                                                                   13%

Yes          811
No         1,802
Don't know 3,062


                                                   No
                                                                                     Yes
                                                  32%
                                                                                     14%




 Q17. If reported, to whom? (Predominant answers)


Chain of Command                                        Military Police
Criminal Investigation Division                         Local Police




                                                 99
 Q18. Are you aware of “off-limits” establishments for US personnel?


                                                                      No               Don't know
                                                                     12%                 13%
  Yes            8,595
  No             1,193
  Don't know       364




                                                                     Yes
                                                                     84%



 Q19. Do you know of any establishment that should be off limits due to commercial sexual
 exploitation linked to TIP?


                                                      I don't know         Yes
                                                          11%              4%




  Yes               438*
  No              8,601
  I don't know    1,145

  * Likely linked to presence of                                                  No
    prostitutes. No determination                                                85%
    of a link to actual trafficking.




Q20. If yes, which one(s) and why?

     No establishments reported as having a definitive link to trafficking. Those establishments
     reported were for alleged prostitution on the premises.




                                                100
Q21 . Do you have any suggestions for improving the TIP program in your area?


     •   Present real life situations where members have been caught via message traffic. This
         info can be used to inform and train personnel on the sign and activities of the program
         and situations in which it is taking place.
     •   Off limits locations and areas are very difficult to understand -- recommend that off limit
         areas be published in a user-friendly, printable map -- off-limit locations could also be
         identified by name and location on the same map.
     •   Only target actual trafficking, not legal establishments that is licensed and regulated by
         the host nation government. Trying to prosecute soldiers for patronizing legitimate
         businesses is ridiculous and counterproductive. The only places that should be off-limits
         should be places where actual crimes are taking place and the soldiers' health is in danger.
     •   Personify the problem: have individuals that have been exploited by this give live
         testimony of their circumstance so soldiers will see these women as people!!!
     •   Provide statistics and evidence of the extent of any U.S. personnel soliciting or involved
         in involuntary servitude, debt bondage, or coercion in this area.
     •   Reduce demand by providing legitimate social opportunities for military members. In the
         past, local universities and other legitimate social groups would often sponsor groups of
         young single people to go to military bases for Friday, weekend, or other scheduled
         events. This provides a safe, legitimate environment for social interaction, which would
         reduce demand for activities contributing to TIP.
     •   Continue to educate our soldiers and I suggest perhaps getting more involved with the
         rehabilitation process for young women who have been caught up in this type of lifestyle.
         If there were a program to help mentor these young women, I would certainly volunteer
         my time and help them learn a skill, enhance their self esteem.
     •   Education is the key. More classes with real examples that have high percentage of
         happening around the area.




                                                 101
Page intentionally left blank




            102
              Appendix I – Onsite Sensing Sessions Results

                                   (848 Participants)
Evaluation of DOD TIP Efforts to Combat TIP
Project No. D2006-DIPOE1-0052.00

Q1. Have you received information on the US Government policy regarding TIP?



                                                                    25%
        Yes      635
        No       213


                                                                                      75%




Q2. For those who answer yes - what was the source of your information?

•   Air Force Office of Special Investigations         •   Local Navy Criminal Investigation Service
    officers.                                              briefing prior to ship’s port visit.
•   All Navy messages directing all sailors to         •   Marine Corps message traffic.
    complete DoD TIP training module on Navy           •   National DoD publication.
    Knowledge on-line.                                 •   Navy Knowledge On-line (NKO) training
•   Battalion training                                     module.
•   Cobra Gold exercise in-brief.                      •   New Horizons Class (USFK)
•   Command training briefs                            •   Off-limits establishment postings
•   DoD training module                                •   Radio commercials.
•   DoD IG developed poster.                           •   Temporary duty to USFK.
•   E-mail                                             •   TIP awareness posters.
•   Indoctrination briefing                            •   Weekly briefs from the Command Sergeant
•   Leadership, Supervisors, and Commanders                Major/Commanding General.
    Call prior to liberty.                             •   TIP articles in base news paper and Stars and
•   LifeTime television show about human                   Stripes.
    trafficking.




                                                 103
Q3. Was the information presented easy to understand? (Subset of Q1.)


                                                                        7%

         Yes    592
         No      43



                                                                             93%




 Q4. Could you recognize signs or indicators of TIP?



                                                                21%
         Yes    667
         No     181


                                                                                   79%




 Q5. Were you aware of TIP prior to this assignment?




                                                              32%
         Yes    579
         No     269


                                                                                         68%




                                              104
    Q6. If yes to question 5, what was the source of the information?


•       Base Paper                                              •   PowerPoint presentation on TIP while in South
•       Commander briefing.                                         Korea assigned to USFK.
•       Deployment to Taegu, South Korea (USFK)                 •   Previous assignment (While stationed in Panama.
                                                                    Women in prostitution bars working off of
•       E-mail received referring to the on-line TIP
                                                                    contracts. The local stories indicated that perhaps
        awareness survey
                                                                    these girls were sold by their families.)
•       Formal education
                                                                •   Spouse of Columbian lineage said that in Columbia
•       In-country brief while TDY to USFK
                                                                    guys in cities would approach females and ask if
•       Media (60 minutes and another story about boys              they want to get an education in the states –
        being trafficked to cater to men)(Internet and              whatever college they wanted. It was later
        television) (documentaries)                                 discovered the women were actually being recruited
•       National DoD publication.                                   by traffickers.
•       Navy Times articles                                     •   Stories from Marines/personal experience
•       Personal experience (a SS member felt that they saw     •   TIP awareness posters.
        indicators with a girl who they were engaged in         •   Training (in a drug traffic awareness training
        discussion with in Thailand)                                course)
•       Personal travels/previous assignment (Balkans)          •   Training received on Navy Knowledge On-line
•       Pervious commander was assigned to USFK in                  (NKO) training module.
        South, Korea.                                           •   Word of mouth (Stories about people selling their
                                                                    sons and daughter to traffickers)



    Q7. Are you aware of US personnel involvement in activities that could be defined as TIP?



                  Yes      72*
                                                                                                   8%
                  No      776




                                                                                          92%




    * The result of equating the perceived presence of prostitutes or “Juicy Girls” as TIP. In each
    instance, further questioning did not identify any involvement of DoD-affiliated personnel in
    actual trafficking.
    .




                                                              105
   Q8. Are you aware of involuntary servitude, debt bondage occurring through US contracted
       labor?



                                                                                0%

                Yes      2*
                No     846



                                                                            100%




    *The two respondents who answered “Yes” suspected individual cases of involuntary servitude
    involving foreign subcontractors in Iraq and Kuwait. (See Chapter 7)


Q9. Are you familiar with the procedures for reporting suspected traffickers?




        Yes      598                                               29%
        No       250


                                                                                     71%




   Q10. Is prostitution illegal in AOR?




                                                                     29%


                 Yes      598
                 No       250

                                                                                           71%




                                                  106
    Q11. Are you aware of incidents where US personnel approached by a prostitute/pimp
       soliciting for sex?




                                                                42%
               Yes      493
               No       355

                                                                                     58%




    Q12. If yes, was it reported? (Subset of Q11.)



                                                                              2%

               Yes        13
               No        835



                                                                            98%



Q13. If yes, to whom?

•    Chain of command                                •   Army Criminal Investigation Division
•    Security                                        •   Navy Criminal Investigation Service

Q14. Are you aware of the “off limits” establishments for US personnel?



                                                                      11%


               Yes      751
               No        97


                                                                              89%




                                                107
Q15. Are you aware of any establishments that should be off limits, but are not?



                                                                               8%



             Yes       72
             No       776

                                                                         92%




Q16. If yes, which one (s) and why?

Base commanders and their Disciplinary Review Boards consider each questionable
establishment, in accordance with established procedures, before placing that establishment “off-
limits.” Recommendations gathered in the sensing session were passed onto the base Inspector
General for review.

Q17. Do you have any suggestions for improving the TIP program in your area?


•   A victim speaking tour would be very effective in training.
•   Be sure to emphasize why this training needs to be done.
•   Clarify reporting procedures (needs to be anonymous)
•   Communicate, educate and hold personnel accountable
•   Educate all levels of the military service
•   Emphasis needs to be government to government vice focusing on DoD.
•   Increase funding for investigators and increase resources.
•   Increase resources for Morale, Welfare, and Recreation funding.
•   Stopping trafficking is hard; eliminating prostitution is impossible.
•   Military should work with local police
•   One member asked what the Air Force Office of Special Investigations was doing about
    the issue.
•   One member had come from Fort Bragg and said there were multiple establishments that
    he suspected were bars that catered to prostitution 1 mile outside the gate.
•   On-line training is OK, but there were multiple problems with access and printing of
    training certificate.
•   Punishment needs to be consistent among commands and services
•   Raise awareness through more training.
•   Bigger than the military/DoD--needs to be pushed to a higher level (politically).
•   State Department needs to pressure local government and local community to effectively
    combat human trafficking.

                                              108
•   Establish a “hotline” to report suspected human trafficking, similar to the DoD IG Hotline for
    fraud, waste and abuse.
•   Cover TIP during the in-brief for Service Members and new employees.
•   Training needs to be a part of pre-deployment briefs.
•   Training needs to be part of “new comer’s briefings.”
•   Training needs to go beyond Navy Knowledge Online.




                                               109
Page intentionally left blank




            110
Appendix J – Department of Defense & Joint Staff Comments




                             111
112
113
114
115
116
117
118
119
120
121
Page intentionally left blank




            122
Appendix K—Military Service Comments




                123
124
125
126
127
128
The Air Force did not respond to our request for Management Comments. We will ask them to
respond to the final report within 90 days of publication.




                                           129
Page intentionally left blank




            130
Appendix L – Combatant Command Comments




                  131
132
133
134
135
136
137
138
139
140
141
142
143
144
145
146
147
148
149
150
151
152
153
154
155
156
     Appendix M – NGO & U.S. Government Organizations
               Combating Trafficking in Persons
Action to Counter Trafficking (ACT), U.S. Association for International Migration -
The ACT project provides community outreach and education and offers social service
providers training, networking, and financial and technical expertise to combat trafficking
in the United States.

Anti-Slavery International (ASI) - ASI works to end slavery and related abuses,
including trafficking in persons and forced prostitution.

Center for Balkan Development (Formerly ‘Friends of Bosnia’) - Provides
reconstruction and humanitarian support to the Balkans.

Center for Strategic & International Studies (CSIS) – Non-profit organization that
seeks to advance global security and prosperity.

Free the Slaves - This organization works to end slavery worldwide.

Freedom Network (USA) - The Freedom Network develops local and national networks
in the U.S. and links to international networks to carry out its mission of empowering
trafficked and enslaved persons.

Human Rights Watch (HRW) Campaign Against the Trafficking of Women and
Girls - HRW works to protect the human rights of people around the world and
campaigns against trafficking.

International Organization for Migration (IOM) - This international organization
works with migrants and governments to provide humane responses to migration
challenges.

My Sister’s Place (Durebang) - A mission program of the National Church Women's
Association of the Presbyterian Church in the Republic of Korea that is supported in part
by grants from Global Ministries. Its mission includes providing a place of compassion
and support for all women, especially current and former prostitutes, who have been
living a life of alienation and oppression, and who are in need of friendship and hope.

Office of Refugee Resettlement (ORR), U.S. Department of Health and Human
Services - ORR helps refugees and other special populations (such as adult victims of
severe forms of trafficking) obtain economic and social self-sufficiency in the United
States.

Office of Women in Development (WID), United States Agency for International
Development (USAID) - USAID's WID program supports the education of girls and
promotes economic and political opportunities for women.

                                           157
Office on Violence Against Women (OVW), U.S. Department of Justice -
OVW provides national and international leadership on legal and policy issues regarding
violence against women, including trafficking in persons and worker exploitation.

Safe Horizon - Safe Horizon's mission is to provide support, prevent violence, and promote
justice for victims of crime and abuse, their families, and communities.

The Asia Foundation - A non-profit, non-governmental organization committed to the
development of a peaceful, prosperous, just, and open Asia-Pacific region. The
Foundation supports programs in Asia that help improve governance and law, economic
reform and development, women's empowerment, and international relations.

The International Humanitarian Campaign Against the Exploitation of Children
(IHCAEC) - Works to combat trafficking in children.

The International Rescue Committee (IRC) - The IRC provides assistance to refugees,
displaced persons and others fleeing persecution and violent conflict throughout the
world.

The Protection Project - The Protection Project gathers and disseminates information
about worldwide trafficking in persons, focusing on national and international laws, legal
cases, and implications of trafficking in other areas of U.S. and international foreign
policy.

Trafficking in Persons and Worker Exploitation Task Force (TPWETF), U.S.
Department of Justice, Civil Rights Division - TPWETF works to prevent trafficking in
persons and worker exploitation throughout the United States and investigates and
prosecutes cases when violations occur.

Women's Bureau, U.S. Department of Labor -
The Women's Bureau helps to provide employment opportunities for women.




                                           158
                                  Appendix N – Glossary


Section I: Acronyms


AC                    Active Component

AF                    Air Force

AKO                   Army Knowledge Online

AOR                   Area of Responsibility

AR                    Army Regulation

ARCENT                Army Central Command

ARNG                  Army National Guard

CENTCOM               Central Command (Also called USCENTCOM)

CFLCC                 Coalition Forces Land Component Commander

COCOM                 Combatant Command

CTIP                  Combating Trafficking In Persons

DepSecDef             Deputy Secretary of Defense

DFARS                 Defense Federal Acquisition Regulation Supplement

DoD                   Department of Defense

DoD IG                Department of Defense Inspector General

DoS                   Department of State

EUCOM                 European Command (Also called USEUCOM)

FAR                   Federal Acquisition Regulation

IG                    Inspector General

JS                    Joint Staff

JS TIP                Joint Staff Trafficking in Persons

                                               159
JTF-N        Joint Task Force North (component of USNORTHCOM)

KBR          Kellogg, Brown, and Root

LOGCAP       Logistics Civil Augmentation Program

MEJA         Military Extraterritorial Jurisdiction Act

MCM          Manual for Courts-Martial

MNF-I        Multi-National Force Iraq

MP           Military Police

MS           Mobilization Station

NATO         North Atlantic Treaty Organization

NGO          Non-governmental Organization

NORTHCOM     Northern Command (Also called USNORTHCOM)

NSPD         National Security Policy Directive

OGC          Office of the General Council

OIG          Office of Inspector General

OJCS         Office of Joint Chiefs of Staff

OCR          Office of Collateral Responsibility

OPR          Office of Primary Responsibility

OSD          Office of the Secretary of Defense

OUSD         Office of the Under Secretary of Defense

PACOM        Pacific Command (Also called USPACOM)

P&HT         Prostitution and Human Trafficking

PDUSD(P&R)   Principal Deputy, Under Secretary of Defense for Personnel and
             Readiness

PKSOI        United States Army’s Peacekeeping and Stability Operations Institute

POC          Point of Contact
                                      160
SecDef                 Secretary of Defense

SOCOM                  Special Operations Command (Also called USSOCOM)

SOFA                   Status of Forces Agreement

SOUTHCOM               Southern Command (Also called USSOUTHCOM)

TIP                    Trafficking in Persons (also known as Human Trafficking)

TVPA                   Trafficking Victims Protection Act

TVPRA                  Trafficking Victims Protection Reauthorization Act

UCMJ                   Uniform Code of Military Justice

USAID                  United States Agency for International Development

USCENTCOM              United States Central Command (Also called CENTCOM)

USEUCOM                United States European Command (Also called EUCOM)

USD(P&R)               Under Secretary of Defense for Personnel and Readiness

USFJ                   United States Forces Japan

USFK                   United States Forces Korea

USN                    United States Navy

USNORTHCOM             United States Northern Command (Also called NORTHCOM)

USPACOM                United States Pacific Command (Also called PACOM)

USSOCOM                United States Special Operations Command (Also called SOCOM)

USSOUTHCOM             United States Southern Command (Also called SOUTHCOM)



Section II: Terms

Coercion –(a) threats of serious harm to or physical restraint against any person; (b) any scheme,
plan or pattern intended to cause a person to believe that failure to perform an act would result in
serious harm to or physical restraint against any person; or, (c) the abuse or threatened abuse of
the legal process.


                                                161
Commercial Sex Act – Any sex act that entails something of value being given or received by
any person.

Debt Bondage – Condition of a debtor arising from a pledge by the debtor of his or her personal
services, or those of a person under his or her control, as a security for debt.

Involuntary Servitude – Condition of servitude induced by means of any scheme, plan, or
pattern intended to cause a person to believe that, if the person did not enter into and continue
servitude, he or she would suffer serious harm.

Sex Trafficking – Recruitment, harboring, transportation, provision, or obtaining of a person for
the purpose of a sex act.

Trafficking In Persons - The recruitment, transportation, transfer, harboring or receipt of
persons by means of threat or use of force or other forms of coercion, abduction, fraud,
deception, abuse of power, or of a position of vulnerability; or giving or receiving payments or
benefits to achieve the consent of a person having control over another person, for the purpose of
exploitation. Exploitation shall include, as a minimum, the exploitation of the prostitution of
others or other forms of sexual exploitation, forced labor or services, slavery or practices similar
to slavery, servitude, or the removal of organs.




                                                162
                        Appendix O – Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Personnel and Readiness*
Under Secretary of Defense for Policy
  Assistant Secretary of Defense for International Security Policy
Assistant Secretary of Defense (Legislative Affairs)

Joint Staff
Director, Joint Staff
Directorate for Manpower and Personnel (J-1), Joint Staff
Joint Staff Inspector General*

Department of the Army
Assistant Secretary of the Army (Manpower and Reserve Affairs)
Commander, U.S. Army Forces Command
U.S. Army Inspector General Agency*
Commander, U.S. Army Europe
Commander, U.S. Army Pacific
Commander, Fort Bliss

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Commander, U.S. Pacific Fleet
Commander, U.S. Naval Forces, Europe
Commander, Marine Forces Corps Forces, Pacific
Commander, U.S. Marine Corps Forces, Europe
Inspector General of the Marine Corps*
Naval Inspector General*

Department of the Air Force
Assistant Secretary of the Air Force (Manpower and Reserve Affairs)
Secretary of the Air Force, Office of the Inspector General*
Commander, U.S. Pacific Air Forces
Commander, U.S. Air Forces in Europe

Unified Commands
Commander, U.S. Central Command
       Inspector General, U.S. Central Command*
       Commander, Multi-National Force Iraq
       Inspector General, Multi-National Force Iraq*
Commander, U.S. European Command
       Inspector General, U.S. European Command*
Commander, U.S. Northern Command
       Commander, Joint Task Force North
       Inspector General, U.S. Northern Command*
       Inspector General, Joint Task Force North*
Commander, U.S. Pacific Command
       Commander, U.S. Forces Japan
       Commander, U.S. Forces Korea
       Inspector General, U.S. Pacific Command*
                                             163
     Inspector General, U.S. Forces Korea*
     Inspector General, U.S. Forces Japan*
Commander, U.S. Southern Command
     Inspector General, U.S. Southern Command*
Commander, U.S. Special Operations Command
     Inspector General, U.S. Special Operations Command*
Commander Joint Forces Command
     Inspector General Joint Forces Command*
Commander Strategic Command
     Inspector General Strategic Command*
Commander Transportation Command
     Inspector General Transportation Command*

DoD Agencies
Director, Defense Logistic Agency
Director, Defense Contract Management Agency*
Director, Defense Contract Audit Agency*
Director, Defense Legal Services Agency
Director, Defense Security Cooperation Agency

Non-Defense Federal Organizations
Government Accountability Office
Special Inspector General for Iraq Reconstruction
U.S. Department of State
       Office to Monitor and Combat Human Trafficking
       United States Mission to NATO
       United States Mission to the United Nations
U.S. Department of Justice, Civil Rights Division

Congressional Committees and Subcommittees, Chairman and Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
Senate Committee on Foreign Relations
Senate Subcommittee on Personnel, Committee on Armed Services
Senate Subcommittee on Immigration, Border Security, and Citizenship,
      Committee on the Judiciary
House Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on National Security, Emerging Threats, and International Relations,
      Committee on Government Reform
House Committee on International Relations
House Subcommittee on Defense, Committee on Appropriations


* Sent a draft copy of the report soliciting management comments.




                                             164
THE MISSION OF THE OIG DoD_______________________________________________

The Office of the Inspector General promotes integrity, accountability, and improvement of
Department of Defense personnel, programs and operations to support the Department’s
mission and to serve the public interest.



TEAM MEMBERS_____________________________________________________________

The Joint Operations, Defense Agencies, and Service Inspectors General Division, Inspections
and Evaluations Directorate, Office of the Deputy Inspector General for Policy and Oversight,
Office of the Inspector General for the Department of Defense prepared this report. Personnel
who contributed to the report include Stanley E. Meyer, - Division Chief, Lieutenant Colonel
Linda K. Daniels (USA) – Team Leader, Major Richard T. Higdon (USAF), Lieutenant
Commander William Blacker (USN), and Thomas J. McKenna.




ADDITIONAL REPORT COPIES________________________________________________

Contact us by phone, fax, or e-mail:
 Inspections and Evaluations Directorate, Deputy Inspector General for Policy and Oversight
 COM: 703.604.9130 (DSN 664-9130)
 FAX: 703.604.9769
 E-MAIL: crystalfocus@dodig.mil
 Electronic version available at: www.dodig.mil/Inspections/IE/Reports
Page intentionally left blank
                       DEPARTMENT OF DEFENSE
                      OFFICE OF INSPECTOR GENERAL


                              ViSION STATEMENT




"One professional team strengthening the integrity, efficiency, and effectiveness of
                Department of Defense programs and operations."



                                                                                               e-mail us at
                                                                                                  hotline@dodig.mil




                                                                                       800.424.9098   Commercial: 703.604.8799   www.dodig.mil/hotline
